<html>
<title> - MEMORIAL TO HONOR ARMED FORCES; REQUIREMENTS FOR NAME ON VIETNAM VETERANS MEMORIAL; MEMORIAL TO MARTIN LUTHER KING, JR.; AND CENTER FOR VIETNAM VETERANS MEMORIAL</title>
<body><pre>[Senate Hearing 108-65]
[From the U.S. Government Printing Office]



                                                         S. Hrg. 108-65
   MEMORIAL TO HONOR ARMED FORCES; REQUIREMENTS FOR NAME ON VIETNAM 
VETERANS MEMORIAL; MEMORIAL TO MARTIN LUTHER KING, JR.; AND CENTER FOR 
                       VIETNAM VETERANS MEMORIAL

=======================================================================

                                HEARING

                               before the

                     SUBCOMMITTEE ON NATIONAL PARKS

                                 of the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                                   on
                                     

                           S. 268                                S. 470

                           S. 296                                S. 1076


                                     
                               __________

                              JUNE 3, 2003


                       Printed for the use of the
               Committee on Energy and Natural Resources


                                 ______

88-261              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                 PETE V. DOMENICI, New Mexico, Chairman
DON NICKLES, Oklahoma                JEFF BINGAMAN, New Mexico
LARRY E. CRAIG, Idaho                DANIEL K. AKAKA, Hawaii
BEN NIGHTHORSE CAMPBELL, Colorado    BYRON L. DORGAN, North Dakota
CRAIG THOMAS, Wyoming                BOB GRAHAM, Florida
LAMAR ALEXANDER, Tennessee           RON WYDEN, Oregon
LISA MURKOWSKI, Alaska               TIM JOHNSON, South Dakota
JAMES M. TALENT, Missouri            MARY L. LANDRIEU, Louisiana
CONRAD BURNS, Montana                EVAN BAYH, Indiana
GORDON SMITH, Oregon                 DIANNE FEINSTEIN, California
JIM BUNNING, Kentucky                CHARLES E. SCHUMER, New York
JON KYL, Arizona                     MARIA CANTWELL, Washington

                       Alex Flint, Staff Director
                     James P. Beirne, Chief Counsel
               Robert M. Simon, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel
                                 ------                                

                     Subcommittee on National Parks

                    CRAIG THOMAS, Wyoming, Chairman
                  DON NICKLES, Oklahoma, Vice Chairman

BEN NIGHTHORSE CAMPBELL, Colorado    DANIEL K. AKAKA, Hawaii
LAMAR ALEXANDER. Tennessee           BYRON L. DORGAN, North Dakota
CONRAD BURNS, Montana                BOB GRAHAM, Florida
GORDON SMITH, Oregon                 MARY L. LANDRIEU, Louisiana
JON KYL, Arizona                     EVAN BAYH, Indiana
                                     CHARLES E. SCHUMER, New York

   Pete V. Domenici and Jeff Bingaman are Ex Officio Members of the 
                              Subcommittee

                Thomas Lillie, Professional Staff Member
                David Brooks, Democratic Senior Counsel


                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Akaka, Hon. Daniel K., U.S. Senator from Hawaii..................     8
Campbell, Hon. Ben Nighthorse, U.S. Senator from Colorado........     4
Daschle, Hon. Tom, U.S. Senator from South Dakota................     4
DuBois, Raymond F., Director, Washington Headquarters Services, 
  Office of the Secretary of Defense.............................    23
Enzerra, David J., Trustee, Pyramid of Remembrance Foundation....    32
Hagel, Hon. Chuck, U.S. Senator from Nebraska....................     2
Johnson, Harry E., Sr., President, Martin Luther King, Jr., 
  National Memorial Project Foundation, Inc......................    45
Lecky, William P., Principal, Ai Architects......................    36
Oberlander, George, Board Member and Treasurer, National 
  Coalition To Save Our Mall.....................................    47
Sarbanes, Hon. Paul S., U.S. Senator from Maryland...............     8
Scruggs, Jan, Vietnam Veterans Memorial Fund.....................    57
Smith, P. Daniel, Special Assistant to the Director, National 
  Park Service...................................................    15
Thomas, Hon. Craig, U.S. Senator from Wyoming....................     1
Voinovich, Hon. George V., U.S. Senator from Ohio................     2
Warner, Hon. John, U.S. Senator from Virginia....................    11
Zumwalt, Lt. Col. James, U.S. Marine Corps, Retired, U.S.S. Frank 
  E. Evans Association, Inc......................................    39

 
   MEMORIAL TO HONOR ARMED FORCES; REQUIREMENTS FOR NAME ON VIETNAM 
VETERANS MEMORIAL; MEMORIAL TO MARTIN LUTHER KING, JR.; AND CENTER FOR 
                       VIETNAM VETERANS MEMORIAL

                              ----------                              


                         TUESDAY, JUNE 3, 2003

                               U.S. Senate,
                    Subcommittee on National Parks,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.

    The subcommittee met, pursuant to notice, at 2:30 p.m. in 
room SD-366, Dirksen Senate Office Building, Hon. Craig Thomas 
presiding.

            OPENING STATEMENT OF HON. CRAIG THOMAS, 
                   U.S. SENATOR FROM WYOMING

    Senator Thomas. Welcome. 2:30, I think we will begin.
    This of course is a hearing on several bills that pertain 
largely to monuments here on the Mall. I want to welcome 
representatives of the Departments of the Interior and Defense 
and other witnesses to today's subcommittee hearing. The 
purpose of the hearing is to receive testimony on the following 
bills:
    S. 268 authorizes the Pyramid of Remembrance Foundation to 
establish a memorial in the District of Columbia and its 
environs to honor members of the armed forces of the United 
States who lost their lives during peacekeeping operations, 
humanitarian efforts, training, terrorism, covert operations;
    S. 296, to require the Secretary of Defense to report to 
Congress regarding requirements applicable to the inscription 
of veterans' names on the memorial wall of the Vietnam Veterans 
Memorial;
    S. 470, to extend the authority for the construction of a 
memorial to Martin Luther King, Jr.;
    And S. 1076, to authorize construction of an education 
center at or near the Vietnam Veterans Memorial.
    We have a number of things to talk about and I hope, of 
course, as we go through this we consider the merits of each of 
these proposals, of each of these memorials that are being 
suggested, and at the same time we try to also get a little 
vision of what we want the Mall and the ceremonial areas of 
Washington, D.C. to look like over time.
    We have brought up a couple of charts over there that show 
the Area I on the left in the green and Area II, and then in 
the other one on the right side there is a reserve down the 
Mall, which was what we talked about last year and that Mall 
then could be treated a little differently than the rest of 
Area I or Area II. So this is not a new idea to deal, of 
course, with the future of the Mall, but it is an ongoing one, 
and we are glad to do that.
    Let me call on a member of the committee, Senator Campbell.
    [The prepared statements of Senators Hagel, Voinovich, and 
Daschle follow:]

   Prepared Statement of Hon. Chuck Hagel, U.S. Senator From Nebraska

    Mr. Chairman, last month I joined my colleagues and fellow Vietnam 
veterans, Senators McCain and Kerry in introducing the Vietnam Veterans 
Memorial Education Center Bill (S. 1076). Today, we are joined by 
Senators Warner, Daschle, Clinton, Durbin, Bunning and Bill Nelson as 
cosponsors. If passed, the bill would authorize the construction of an 
underground Education Center near the site of the Vietnam Veterans 
Memorial. The bill is similar to legislation passed by this Committee 
last year.
    Twenty-one years ago, the Vietnam Veterans Memorial was built as a 
permanent testament to the sacrifice of over 58,000 veterans who died 
during the Vietnam War. It is a place of remembrance for Vietnam 
veterans and their families.
    As the Vietnam War draws further into America's past, it is 
important for future generations to remember the sacrifices of those 
who gave their lives in Vietnam, and to understand the lessons learned 
in Vietnam.
    Most visitors to the Wall today were not alive during the Vietnam 
War. The Education Center would serve as an access point for the next 
generation. By collecting historic documents, artifacts and the 
testimony of Vietnam veterans, the Education Center would provide 
visitors with a better understanding of the Memorial.
    The Memorial was designed to accommodate expansion. Over the last 
two decades, the Wall's reach has extended; names of fallen soldiers 
have been added to the black granite. Building the Education Center 
underground would expand the memorial in a new direction--one that does 
not distract from the natural beauty of the Mall.
    The names on the Wall must never become simple, empty etchings. 
Their individual and collective power must remain connected to the real 
human sacrifices of war. The Education Center would help preserve this 
bond. It would affirm the meaning of the Wall, not just as an 
acknowledgment of a war or a date to be remembered, but as a living 
memorial with lessons to offer those who come to learn.
    Many educators, veterans, lawmakers and organizations have voiced 
strong support for the proposed Education Center. Like the Wall, the 
Center would be funded entirely by private donations--evidence of its 
broad-based public support. There would be no taxpayer money involved 
in building the Center.
    Building an Education Center at the Vietnam Veterans Memorial would 
affirm the belief that we can inspire peace by educating our young 
people about the consequences of war. For there is no stronger advocate 
for peace than one who knows war.
    I am proud to sponsor this bill authorizing the construction of the 
Vietnam Veterans Memorial Education Center. I ask my colleagues on the 
Energy Committee to support this effort and pass the Vietnam Memorial 
Education Center Bill out of the Senate Energy Committee.
    Thank you, Mister Chairman.
                                 ______
                                 
            Prepared Statement of Hon. George V. Voinovich, 
                         U.S. Senator From Ohio

    Thank you, Mr. Chairman. I would like to thank you for convening 
this hearing today to examine S. 268, legislation that would authorize 
the creation of the Pyramid of Remembrance, a memorial to honor U.S. 
service men and women who have lost their lives during peacekeeping 
operations, humanitarian efforts, training, terrorist attacks, or 
covert operations.
    Such a memorial is long overdue in our nation's capital, and I am 
glad to have the chance to testify in strong support of this important 
legislation. I am also pleased to welcome from my home state of Ohio 
Mr. Dave Enzerra, who serves as a Trustee of the Pyramid of Remembrance 
Foundation and General Manager of the Lubrizol Corporation in 
Painesville, Ohio. I look forward to his testimony and thank him for 
taking the time to travel to Washington to appear before the 
Subcommittee this afternoon.
    As my colleagues may be aware, this legislation is the product of 
work done by motivated young people at Riverside High School in 
Painesville, Ohio. Ten years ago, in October 1993, these high school 
students watched in horror as a U.S. soldier in Somalia was dragged 
through the streets of Mogadishu. The students--concerned that there 
was not a memorial in our nation's capital to honor members of the 
armed forces who lost their lives during peacekeeping missions such as 
the one in Somalia felt compelled to take action.
    They spearheaded a campaign to establish a Pyramid of Remembrance 
in Washington, DC. The students not only proposed the memorial, they 
also created a private non-profit foundation to raise the money to 
construct the memorial. The community in Painesville, Ohio really 
pulled together, providing legal counsel for the students and private 
donations to help fund the project. Today, members of the community, 
such as Dave Enzerra, remain an integral part of this process. The 
community in Painesville, Ohio has been very generous with their time 
and support, and their dedication to this project has helped it come to 
fruition. Due in part to the strong support of this Ohio community, the 
proposed national Pyramid of Remembrance would be built at no cost to 
the taxpayers.
    There has been considerable discussion regarding the Pyramid of 
Remembrance since it was proposed by the students of Riverside High 
School and first introduced in the House of Representatives by my 
colleague, Representative Steven LaTourette, on May 14, 1997. Last 
September, the House Resources Committee's Subcommittee on National 
Parks, Recreation, and Public Lands conducted a hearing to examine the 
proposed Pyramid of Remembrance.
    On October 17, 2002, Senator Mike DeWine joined me in introducing 
legislation in the Senate for the first time to authorize the creation 
of the Pyramid of Remembrance. We re-introduced this legislation on 
January 30, 2003, taking into account recommendations made by the 
National Park Service, and I am pleased that today's hearing marks the 
first time that this legislation will be considered by the Senate 
Committee on Energy and Natural Resources.
    In addition to consideration in the United States Congress, the 
National Capital Memorial Commission which is charged with overseeing 
monument construction in Washington, DC, conducted hearings about the 
proposed Pyramid of Remembrance in April 2001. The Commission 
recommended that the memorial be constructed on Defense Department 
land, possibly at Fort McNair. The commissioners also noted that such a 
memorial would indeed fill a void in our nation's military monuments.
    I agree with the commissioners' findings. I, too, believe that this 
memorial would be an important addition to our nation's capital to 
honor those who have lost their lives while serving in the United 
States military.
    On May 6, 1999, I spoke on the Senate floor in honor of two brave 
American soldiers--Chief Warrant Officer Kevin L. Reichert and Chief 
Warrant Officer David A. Gibbs--who lost their lives when their Apache 
helicopter crashed into the Albanian mountains during a routine 
training exercise on May 5, 1999, as U.S. troops joined with our NATO 
allies in a military campaign against Slobodan Milosevic. As I remarked 
at the time, the United States owes Kevin, David and so many other 
service members a debt of gratitude that we will never be able to 
repay, for they have paid the ultimate sacrifice. As the Bible says in 
John chapter 15:13, ``Greater love has no man than this, that a man lay 
down his life for his friends.''
    The Pyramid of Remembrance would honor individuals such as David 
Gibbs and Kevin Reichert. It would also honor the memory of the 17 
service members who lost their lives when the U.S.S. Cole was attacked 
on October 12, 2000, and the men and women who lost their lives during 
the terrorist attacks against the Pentagon on September 11, 2001.
    As we continue the global campaign against terrorism, we must 
always remember and honor the brave men and women who have lost their 
lives while defending our freedom. Tragically, ten service members, 
including three men from the State of Ohio, lost their lives on 
February 21, 2002, when a CH-47 Chinook helicopter crashed in the 
Philippines. They are Army Captain Bartt Owens of Franklin, Ohio; Army 
Chief Warrant Officer Jody Egnor of Middletown, Ohio; and Air Force 
Master Sgt. William McDaniel of Fort Jefferson, Ohio.
    More lives were lost on March 11, 2003, when a UH-60 Black Hawk 
helicopter crashed in New York. Eleven service members were killed, 
including Captain Christopher E. Britton of Mansfield, Ohio. We must 
remember and honor the sacrifice that these men--and all who have died 
serving our country--made to protect and ensure the freedom of all 
Americans.
    The patriotism, dedication, and vision of the students at Riverside 
High School are commendable. Their action shows maturity, leadership 
and passion for their country that Americans of all ages should 
emulate. I support and applaud the work these students have done to 
establish the Pyramid of Remembrance, as well as the efforts of 
community members who have provided ongoing guidance and support to 
help the students turn their vision into reality.
    I believe it is our duty to honor American men and women in uniform 
who have lost their lives while serving their country, whether in 
peacetime or during war, and this memorial will ensure that the 
sacrifice made by so many is always remembered by our grateful nation.
    Again, thank you, Mr. Chairman, for convening this hearing today. I 
am hopeful that the Committee will soon vote in support of S. 268 and 
send it to the floor for consideration by the full Senate.
                                 ______
                                 
 Prepared Statement of Hon. Tom Daschle, U.S. Senator From South Dakota

    Thank you, Mr. Chairman, for allowing me to present testimony in 
favor of S. 1076, legislation to authorize the design and construction 
of an education center at the Vietnam Veterans Memorial. As a co-
sponsor of this legislation since the 106th Congress, I appreciate the 
committee's continuing interest in making this project a reality.
    As co-chair of the Vietnam-era Veterans in Congress, I have worked 
closely with Senator Hagel to educate our colleagues and build support 
for a new education center, which would do so much to educate future 
generations about The Wall and its place in American history. This 
committee did its part in the 107th Congress, holding a hearing and 
reporting the bill to the floor. Unfortunately, the Senate was never 
allowed to consider the legislation, due to disagreements over a 
provision precluding future development on the core area of the 
National Mall.
    For the sake of veterans, for the sake of generations who came of 
age after the Vietnam War, indeed, for the sake of the country, I hope 
this Congress is different. We need this education center.
    In my lifetime, the Vietnam conflict stands out as one of our most 
wrenching national experiences. Over the years, The Wall has proven to 
be an amazing instrument for healing. It has converted discord and 
turmoil into unity and calm. It carries special meaning for thousands 
of veterans, their families, and their friends. This center would 
educate visitors about the more than 58,000 men and women whose names 
appear on The Wall. It would display photographs of those killed or 
missing, as well as some of the more than 60,000 items that have been 
left by visitors to The Wall. Among other themes, an education center 
would explore the memorial's place in history and why it elicits such 
powerful emotions from visitors.
    As a Vietnam-era veteran myself, the Vietnam War has shaped my 
efforts as a member of Congress, providing the inspiration for my work 
to provide disability benefits for Vietnam veterans exposed to Agent 
Orange and for many other efforts to heal wounds acquired in Southeast 
Asia. I was introduced to this current effort by Jan C. Scruggs, 
founder and president of the Vietnam Veterans Memorial Fund, who has 
spoken personally with many of you on this committee. Due to Jan's 
persistence and flexibility, this proposal has been refined and 
improved over the years. Construction would be funded entirely through 
private donations. The National Park Service has developed a plan to 
place the center underground, minimizing its impact on sight lines at 
the National Mall.
    Unfortunately, this proposal has been caught in a crossfire between 
those with aspirations for additional monuments and museums on the Mall 
and those concerned about over-development. While this is a worthy 
subject for debate, I am concerned that in recent years it has 
overshadowed--and needlessly delayed--a worthy project that holds great 
promise for veterans, youth, and other Americans.
    Though the painful memories of the Vietnam era still haunt many 
Americans, new generations of young people born after the war are 
already being welcomed into adulthood. To ensure that the essential 
lessons of this time are never lost, and to ensure that the legacy of 
bravery and sacrifice honored by the Vietnam Veterans Memorial lives 
on, let us take this opportunity to construct a Vietnam Veterans 
Memorial Education Center, a place where the trauma of our past can 
provide lessons to guide our future.

          STATEMENT OF HON. BEN NIGHTHORSE CAMPBELL, 
                   U.S. SENATOR FROM COLORADO

    Senator Campbell. Thank you, Mr. Chairman. Thank you for 
holding this hearing on four bills pending before the 
Subcommittee on National Parks that would help our Nation 
better remember and honor our fellow Americans who have done so 
much to make the United States the leading country in the 
world.
    I have a complete statement. I would ask your permission to 
put that in the record----
    Senator Thomas. Without objection.
    Senator Campbell [continuing]. And try and abbreviate a 
little bit.
    Mr. Chairman, today we are looking at bills that seek to 
preserve the memory of those who have done so much for the 
American people. Three of the bills involve honoring and 
preserving the memory of those members of the Nation's armed 
services who have made the ultimate sacrifice. You have heard 
yourself, I am sure, all gave some and some gave all. These 
bills really relate to the people that gave all.
    Another bill we are looking at today concerns Dr. Martin 
Luther King, a great American and certainly a personal hero of 
mine.
    Mr. Chairman, these four bills we will be taking a closer 
look at today include--one of them I introduced earlier in the 
year, S. 296, the Fairness to All Fallen Vietnam War Service 
members Act of 2003. This legislation would help us find an 
appropriate way to recognize and honor the men and women of our 
Nation's armed services who did give their all in connection to 
their service in Vietnam, but whose names were not listed on 
the Vietnam Veterans Memorial wall here in the Nation's 
capital.
    This bill is based on language which I previously 
introduced toward the end of the 107th Congress. We 
unfortunately ran out of time before we could deal with it in 
full measure. We have some outstanding witnesses today, Mr. 
Chairman. I will not go into their backgrounds. It is a matter 
of record and I am sure you will be introducing them.
    Almost 40 years ago our country started sending a 
generation of young men to fight in Vietnam, and women too. 
Over 58,000 American soldiers gave their lives to their country 
in and around the land, skies, and seas of Vietnam. The 
ultimate sacrifice of many of these men were honored here on 
the Vietnam Vets Wall here in Washington, D.C. But some of 
them, including many who served during the war itself, say that 
all of the names are not on the wall that should be on the wall 
because some who rightfully should be along side their American 
friends for whatever reason were inadvertently left off the 
wall.
    Now is the time, I think, to take a good hard look at that 
omission, and that is basically what this bill does. I might 
tell you one example and that is the story of the U.S. 
destroyer USS Frank E. Evans. In the spring of 1969 the Evans 
sailed from the port of Long Beach for the last time, after 
seeing serious combat off the coast of Vietnam. The Evans was 
sent to the South China Sea to participate in Operation Sea 
Spirit, a simulated wartime operation at darkened ship 
maneuvering conditions at night, on zig-zag courses to evade 
the determined but simulated enemy submarines, with ships for 
the Southeast Asia Treaty Organization involved, too.
    In the early hours of June 3, the crew of the Evans awoke 
to what must have been an absolutely terrifying experience, 
because they were hit by the Australian aircraft carrier the 
HMAS Melbourne almost amidships. It slammed into the Evans, 
cutting it in half. The aft section of the Evans did stay 
afloat long enough to secure it to the HMAS Melbourne to 
prevent it from sinking, but the front section of the Evans 
sank in just nine short, tragic minutes.
    My staff tells me that 74 crew members were lost, and of 
those 74 that were lost, they were not lost to enemy fire, they 
were involved in--even though they were involved in serious 
combat just a few days before, but they all lost their lives on 
that collision. Of the 74, 44 of them come from home States 
represented by members of this committee.
    Unfortunately, the case of the U.S.S. Evans does not stand 
alone. There are many families across the United States whose 
loved ones have been excluded from proper recognition for too 
long. All they have got for their lives of their missing 
airmen, seamen, Army folks was a flag, insurance, and back 
wages, but not much else. They certainly deserve the same 
recognition their comrades got, and S. 296 tries to say that.
    This bill directs the Secretary of Defense to determine an 
appropriate manner to recognize and honor the Vietnam veterans 
who died in service to our Nation. Additionally, the bill asks 
the Secretary to evaluate the feasibility and equitability of 
revising eligibility requirements applicable to the inscription 
of names on the memorial wall to be more inclusive to such 
veterans. Such revisions are essential to regaining the public 
trust.
    It further asks for input from government agencies and 
organizations that originally constructed the Vietnam Veterans 
Memorial wall regarding the feasibility of adding additional 
names. Finally, it asks for appropriate alternative options for 
recognizing the veterans whose names should have been on there 
should it be deemed that there is no logistical way to add the 
names to the wall.
    Whatever the result, it is essential that something 
appropriate be done to recognize the sacrifice they made. It 
does not set a precedent, Mr. Chairman. Indeed, 296 names have 
already been added to the wall since initial construction.
    Being a veteran myself, Mr. Chairman, I know the importance 
of this bill to many of our veterans groups, and with that look 
forward to the testimony of our guests. Thank you.
    [The prepared statement of Senator Campbell follows:]

          Prepared Statement of Hon. Ben Nighthorse Campbell, 
                       U.S. Senator From Colorado

    Mr. Chairman, thank you for holding this hearing on four bills 
pending before the Subcommittee on National Parks that would help our 
nation better remember and honor our fellow Americans who have done so 
much to make the United States and the world a better place to live.
    Our National Parks are not just a way for us to protect and 
preserve the wonderful natural gifts this nation has been blessed with. 
Neither are they not just a good way to preserve and protect key places 
where pivotal events in American history have taken place. While these 
qualities are important, there is much more to our National Parks. Our 
National Parks also serve as a vital way to help us remember and honor 
the brave men and women who have played such an important role in our 
nation's history. They help ensure that the contributions made will be 
passed on from generation to generation.
    I am pleased that today's hearing will be focusing on four bills 
that will do just that. Today we are looking at bills which seek to 
preserve the memory of those who have done so much for the American 
people and indeed, the world. Three of these bills involve honoring and 
preserving the memory of those members of our nation's Armed Services 
who have made the ultimate sacrifice. ``All gave some and some gave 
all.'' Another bill we are looking at today concerns Martin Luther 
King, another great American who ``gave all.''
    Mr. Chairman, I am especially pleased that one of the four bills we 
will be taking a closer look at today is a bill that I introduced 
earlier this year, S. 296, the Fairness to All Fallen Vietnam War 
Service Members Act of 2003.
    This much-needed legislation would help us find an appropriate way 
to recognize and honor the men and women of our nation's Armed Services 
who ``gave all'' in connection to their service in Vietnam but whose 
names are not listed on the Vietnam Veterans Memorial Wall here in our 
Nation's Capital. This bill is based on language which I previously 
introduced toward the end of the 107th Congress.
    I would like to take a moment to welcome one of the distinguished 
witnesses who will be testifying today, Lieutenant Colonel James G. 
Zumwalt. I also want to recognize four special guests who I understand 
are with us today in the audience. They are retired Vice Admiral Emmett 
H. Tidd and his wife Muggs and John C. Campbell (J.C.), and his wife 
Sylvia. Mr. Chairman, I hope that you would allow me to include some 
additional highlights about these American's distinguished careers 
along with my comments for the Committee's records.
    Almost forty years ago, our country started sending a generation of 
young men off to fight in Vietnam. Over 58,000 American soldiers gave 
their lives to their country in and around the lands, skies, and seas 
of Vietnam. The ultimate sacrifices many of these men have made are 
honored on the Vietnam Veterans Memorial Wall here in Washington, D.C.
    However, there are some very respected Americans, including many 
who served during the Vietnam War, who say that there are names missing 
from the Wall that rightfully should be there alongside their fellow 
fallen Americans. Now is the time to take a good, hard look at seeing 
what we can do to help correct that omission.
    The tragic story of the United States Destroyer, USS Frank E. 
Evans, is an example of just such a case. In the Spring of 1969, the 
Evans sailed from the Port of Long Beach for the last time. After 
seeing serious combat off the coast of Vietnam, the Evans was sent to 
the South China Sea to participate in Operation Sea Sprit, a simulated 
war time operation at darkened ship maneuvering conditions at night, on 
zig-zag courses to evade the determined simulated enemy submarines, 
with ships for the Southeast Asia Treat Organization (SEATO).
    In the early hours of June 3, the crew of the Evans awoke to the 
terrifying sound of their ship being cut in two. An Australian aircraft 
carrier, HMAS Melbourne had slammed into the Evans. The force literally 
split the ship in two. While the aft section of the Evans was 
immediately secured along the side of the HMAS Melbourne, the front 
section of the Evans sank in 9 short and tragic minutes. Seventy-four 
crew members were lost. While these men were not lost due to enemy 
fire, they were involved in serious combat only days before this 
tragedy. It may be of some interest for those Senators serving on this 
committee to know, that of the 74 sailors who perished, 44 of them are 
from your home states respectively.
    Unfortunately, the case of the USS Evans does not stand alone. 
There are many families across the United States whose loved ones have 
been excluded from proper recognition for far too long. All that these 
families received was a flag, insurance, back wages owed their loved 
one, and a plaque from the Navy. They were not deemed eligible for 
combat benefits.
    These men died while serving their country and are due the rights 
and honors they deserve. At a time when we rightly honor heroes across 
our country, should we not also take the necessary step to ensure that 
our past heroes are treated with the same respect? It is vital for us 
to have fitting places of honor for all of the men and women who have 
served and died for their country. It is also important for the 
families of these fallen heroes to have a place in our Nation's Capital 
where their loved ones' sacrifice is honored and recognized for future 
generations.
    This bill directs the Secretary of Defense to determine an 
appropriate manner to recognize and honor Vietnam Veterans who died in 
service to our nation, but whose names were excluded from the Vietnam 
Veterans Memorial Wall. Additionally, the bill asks the Secretary to 
evaluate the feasibility and equatability of revising the eligibility 
requirements applicable to the inscription of names on the memorial 
wall to be more inclusive of such veterans. Such revisions are 
essential to regaining the public trust.
    It further asks for input from government agencies and 
organizations that originally constructed the Vietnam Veterans Memorial 
Wall regarding the feasibility of adding additional names. Finally, the 
bill asks for appropriate alternative options for recognizing these 
veterans should it be deemed that there is no logistical way to add 
these names. Whatever the result, is essential that something 
appropriate is done to recognize the ultimate sacrifice they have made. 
It is important to their families and shipmates that they are not 
forgotten.
    Mr. Chairman, as a veteran of the Korean War, I personally 
understand the ultimate sacrifice many of our brave men and women have 
made for the price of freedom. This recognition should not be taken 
lightly.
    In closing, Mr. Chairman, I want to thank you for holding this 
timely and important hearing. I look forward to hearing from our 
distinguished panel of witnesses.

    Senator Thomas. Thank you, Senator.
    Senator Akaka.

        STATEMENT OF HON. DANIEL K. AKAKA, U.S. SENATOR 
                          FROM HAWAII

    Senator Akaka. Thank you, Mr. Chairman, for having this 
hearing to consider several proposals related to monuments. 
Many of the bills on this afternoon's schedule cover issues 
which the committee has considered previously. Each of these 
bills seeks to honor individuals or events that are worthy of 
recognition. However, if our previous hearings on bills 
involving memorials and the National Mall are any indication, 
these issues are rarely without controversy.
    It is never an easy matter to balance the desired 
recognition of an important historical event or person with the 
equally strong desire to conserve open space on the Mall. Last 
year the committee was able to reach a compromise on Senator 
Hagel's bill to authorize construction of an education center 
for the Vietnam Veterans Memorial. I supported that compromise. 
I am pleased that with respect to the authorization of the 
education center the new bill reflects that compromise.
    I know that both Senator Thomas and Senator Bingaman worked 
very hard last year to enact legislation recommended by the 
National Park Service and National Capital Planning Commission 
to protect the Mall from future development, and I look forward 
to working with both of them as we address this very important 
issue.
    Several years ago, this committee passed legislation 
authorizing construction of a memorial to honor Dr. Martin 
Luther King, Jr. S. 470 extends the authority to begin 
construction of the memorial for an additional 3 years. I 
supported the authorization of the memorial, and I believe the 
extension of its authorization is also warranted.
    We have a distinguished panel of witnesses testifying today 
and I would like to welcome each of you to the subcommittee. I 
look forward to hearing your testimony and learning more about 
each of the proposals.
    Thank you very much, Mr. Chairman.
    Senator Thomas. Thank you, Senator. Glad that you are here.
    Senator Sarbanes is with us. Welcome, sir.

       STATEMENT OF HON. PAUL S. SARBANES, U.S. SENATOR 
                         FROM MARYLAND

    Senator Sarbanes. Thank you very much, Chairman Thomas, 
ranking member Akaka, and Senator Campbell.
    I am pleased to come before the Subcommittee on National 
Parks on behalf of S. 470 that Senator Akaka just made 
reference to. This legislation does a very simple thing. It 
extends the legislative authority for constructing a memorial 
to Dr. Martin Luther King for an additional 3 years.
    Let me just quickly recount. I have submitted a statement 
and I hope it will be included in the record.
    Senator Thomas. It will be in the record, Senator.
    Senator Sarbanes. I know the press of time on the committee 
and I will just try to summarize very quickly.
    In November 1996, we enacted legislation authorizing the 
construction of the Martin Luther King memorial. It then took a 
couple of years before Congress was able to pass legislation 
authorizing the placement of the memorial in Area I of the 
capital. The foundation then worked with the National Capital 
Planning Commission and the Commission for Fine Arts for over a 
year to locate an appropriate site for the memorial within Area 
I. That has all been through the process.
    A design has now been selected for the memorial and the 
foundation, the Martin Luther King Foundation, is in the 
process of getting that design approved by the Department of 
the Interior.
    The Commemorative Works Act provides there is a 7-year 
period of legislative authority in which to acquire a 
construction permit for the memorial. To have the construction 
permit you must have raised the money. The burden for raising 
this money is going to be completely private on the Alpha Phi 
Alpha fraternity, of which Dr. King was a member.
    We are now at the point where we need an extension of time 
in order to carry through on this final approval of the design 
and the money raising. Senator Warner and I have joined along 
with--we have about half of the Senators who have co-sponsored 
this bill and more are joining day by day. The legislation has 
also been offered on the House side to extend the period of 
legislative authority for an additional 3 years.
    This has been done before in a number of instances with 
respect to other memorials, so it is not as though we are 
seeking an unprecedented action, and usually on these more 
difficult memorials in terms of siting, design, and money-
raising it has been necessary to extend the time period.
    We are deeply appreciative to the subcommittee for moving 
so expeditiously in order to hold this hearing. I very strongly 
believe that a memorial to Dr. King erected here in the 
Nation's capital will be an inspiration to all and particularly 
to the thousands of students and young people who visit 
Washington every year.
    Dr. King, as of course we well know, dedicated his life to 
achieving equal treatment and enfranchisement for all 
Americans. He really emphasized two extraordinarily important 
principles of our national life: one, the reconciliation of the 
races and the inclusion into the mainstream of American life of 
all of its people as being fundamental to the health of our 
Nation; and secondly, that change, even very fundamental 
change, is to be achieved through nonviolent means, and that 
this is the path down which we should go as a Nation in 
resolving some of our most difficult problems.
    Again, I urge the committee to move favorably on S. 470 so 
that we can provide this framework within which the foundation 
will be seeking to raise the money. I believe you are going to 
be hearing from Mr. Harry Johnson later in your proceedings, 
who will be speaking in effect for Alpha Phi Alpha, the general 
president of Alpha Phi Alpha and thousands of interested 
citizens across the country.
    It is now coming close to being realized, but we need this 
additional time period in which to achieve that, and I urge the 
committee's favorable action.
    [The prepared statement of Senator Sarbanes follows:]

       Prepared Statement of Hon. Paul S. Sarbanes, U.S. Senator 
                             From Maryland

    Chairman Thomas, Ranking Member Akaka, and members of the 
Subcommittee on National Parks, it is a pleasure to appear before you 
today with Senator Warner and Mr. Harry Johnson of the Martin Luther 
King National Memorial Project Foundation on behalf of S. 470, a bill I 
introduced on February 27, 2003, to extend the legislative authority 
for the memorial to Dr. Martin Luther King, Jr., in the District of 
Columbia. I would like to thank the Subcommittee for moving so 
expeditiously on S. 470--legislation that is crucial to ensure a 
fitting tribute to our Nation's greatest civil rights leader.
    In the 104th Congress, Congress passed a bill that I sponsored 
authorizing the creation of a memorial to Dr. King as part of the 
Omnibus Parks legislation. The Alpha Phi Alpha Fraternity, of which Dr. 
King was a member, was designated to coordinate the design and funding 
of the memorial. The legislation provides that the monument be 
established entirely with private contributions at no cost to the 
Federal Government. The Department of Interior, in consultation with 
the National Capital Park and Planning Commission and the Commission on 
Fine Arts, has approved the site of the memorial pursuant to this 
legislation. A design has been selected and the Alpha Phi Alpha 
National Memorial Project Foundation is in the process of getting that 
design approved by the Department of the Interior.
    Pursuant to the Commemorative Works Act, there is a seven-year 
period of legislative authority in which the National Memorial Project 
Foundation must acquire a construction permit for the memorial. This 
seven-year period will expire in November of this year. Despite the 
enormous dedication of the National Memorial Project Foundation 
additional time is necessary for the Foundation to erect a fitting 
tribute to Dr. King. Meeting the administrative procedures and 
fundraising requirements of the Act has been a slow process. Therefore, 
the Foundation requires more time in which to complete the process and 
acquire a construction permit.
    That is why I, and Congresswoman Diane Watson in the House of 
Representatives, have offered legislation to extend the period of 
legislative authority for an additional three years. This legislation 
would give the Foundation additional time to raise the necessary funds 
to obtain the construction permit, and would ensure that work on the 
memorial is completed. This extension of legislative authority has been 
done before for numerous other memorials, such as the World War II 
Memorial and the U.S. Air Force Memorial, given the length of time it 
usually takes to embark on a project of this magnitude, and it should 
be done for the Martin Luther King, Jr. Memorial.
    On May 22nd, the National Capital Memorial Commission met to 
consider S. 470 and H.R. 1209, the House version sponsored by 
Representative Diane Watson. Dr. Henry Jackson, the Executive Architect 
for the Martin Luther King National Memorial Project Foundation, 
testified before the Commission. He gave a brief overview of the 
progress that has been made on the memorial since 1996, and an update 
on current efforts to raise funds, increase public awareness and 
continue with the design and construction of the memorial. The 
Commission unanimously approved a motion to recommend that the three-
year extension be granted.
    Since 1955, when in Montgomery, Alabama, Dr. King became a national 
hero and an acknowledged leader in the civil rights struggle, until his 
tragic death in Memphis, Tennessee in 1968, Martin Luther King, Jr. 
made an extraordinary contribution to the evolving history of our 
Nation.
    His courageous stands and unyielding belief in the tenet of 
nonviolence reawakened our Nation to the injustice and discrimination 
that continued to exist 100 years after the Emancipation Proclamation 
and the enactment of the guarantees of the 13th, 14th and 15th 
amendments to the Constitution.
    A memorial to Dr. King erected in the Nation's Capital will provide 
continuing inspiration to all who view it, and particularly to the 
thousands of students and young people who visit Washington, D.C. every 
year. While these young people may have no personal memory of the 
condition of civil rights in America before Dr. King, nor of the 
struggle in which he was the major figure, they do understand that 
there is more that needs to be done in this critical area.
    Martin Luther King, Jr. dedicated his life to achieving equal 
treatment and enfranchisement for all Americans through nonviolent 
means. It is my hope that the young people who visit this monument will 
come to understand that it represents not only the enormous 
contribution of this great leader, but also two very basic principles 
necessary for the effective functioning of our society. The first is 
that change, even very fundamental change, is to be achieved through 
nonviolent means; that this is the path down which we should go as a 
Nation in resolving some of our most difficult problems. The other 
basic principle is that the reconciliation of the races, the inclusion 
into the mainstream of American life of all its people, is essential to 
the fundamental health of our Nation.
    I very much appreciate the Subcommittee on National Parks' 
consideration of this important legislation and strongly urge Committee 
passage of S. 470 so that we may move it through the Congress as 
expeditiously as possible.

    Senator Thomas. Thank you, Senator.
    Senator Warner, glad to have you, sir.

          STATEMENT OF HON. JOHN WARNER, U.S. SENATOR 
                         FROM VIRGINIA

    Senator Warner. Thank you, Mr. Chairman. I am privileged to 
be in this committee room, having been a member of this 
committee for many, many years, and especially to be joined by 
my distinguished senior colleague, the senior Senator from 
Maryland. We have worked together on many projects through the 
years. His thoroughness and preparation and commitment is 
invaluable to achieving these goals, and particularly this one, 
Mr. Chairman.
    I feel very strongly about this. I think it interesting 
that we share a common experience. The two of us were at the 
memorial when Dr. King delivered his most famous address. I was 
a bystander. I was attracted to go down and see, I am not sure 
what the motivation; and it was a day I shall not forget.
    Then later, when I was a trustee of the Washington 
Cathedral, I participated in the deliberations which led 
eventually to Dr. King receiving the invitation to go into the 
pulpit and give a historic sermon, which was his last sermon, 
at the Washington Cathedral.
    We both have a strong background and we have worked with 
the distinguished members of this organization through the 
years. As I go back through the record and as I hope that you 
have the time to do, Mr. Chairman and members of the committee, 
it is very clear that they have, the proponents and those who 
are laboring for this, worked diligently. It is just that here 
in the Nation's capital processes move very slowly. You need 
only look at the World War II Memorial and how slow that has 
been.
    There is a precedent for the extension of the statutory 
period. Had they been dilatory or just been neglectful, we 
would not be here. But we are here to authenticate how hard 
this group has worked and will continue to work, and this goal 
will be achieved.
    I would like to submit the balance of my statement for the 
record and thank the chairman and the members of the committee 
for their indulgence.
    Senator Thomas. We will include it in the record.
    Thank you, Senators, and we will hear later from another. 
We appreciate your service, Senator Warner, on this committee. 
We are thinking of a memorial over here in the corner.
    Senator Thomas. Actually, it was way down here I sat as a 
freshman.
    Senator Warner. Mr. Chairman, I am also here today on 
behalf of the Vietnam Veterans Memorial. Would it be 
appropriate for me just to address the committee for a few 
minutes on this, and then I have to go to the Intelligence 
Committee hearing.
    Senator Thomas. Certainly, please go ahead.
    Senator Warner. I will submit my statement. But I have had, 
together with my good friend here, just an almost--this is my 
25th year in the U.S. Senate. Twenty of them, I think, have 
been devoted to this memorial one way or another practically, 
in getting the legislation through with your former colleague, 
our former colleague, Senator Mathias and others, in which you 
helped us, Senator Sarbanes.
    Now I think this request is very modest, simply to put 
beneath the ground level an educational center of modest 
proportions compared to what we are doing in the front of the 
U.S. Capitol to again have a visitor type center. Those of us 
that have been involved, when I was on the Rules Committee with 
regard to the Capitol construction, it is the same basic 
justification. People come from all over the United States and 
indeed from all over the world to see this historic 
institution. And if they have the opportunity to receive some 
basic education before they actually visit the site, the 
Capitol in this case, the Vietnam Veterans Memorial in this 
legislation, they benefit from it.
    So this is simply to house a modest collection of artifacts 
that have been collected through the years as an educational 
process, so when that individual stands before that wall and 
receives the emotional experience that all of us experience to 
this day when we are present there it is far more meaningful.
    It seems to me that this committee will see its way towards 
having hopefully a free-standing piece of legislation. I fully 
recognize and I laud the committee for their desire to protect 
the future of this parcel of land, which is fast being absorbed 
by I think very important memorials. But on the other hand, 
this one I think should be allowed to move forward apart from 
the consideration on the desire to have a sort of a moratorium, 
which I happen to support independently.
    I would like to put my statement on the record. But bear in 
mind as you look at this what we are doing right here at the 
U.S. Capitol and we are doing it on a far smaller scale. Yet, 
the visitation at the Capitol in terms of numbers and the 
visitation at this memorial in terms of numbers of people are 
comparable. It is extraordinary.
    I thank the distinguished members of the committee and I 
submit the two statements.
    [The prepared statements of Senator Warner on S. 470 and S. 
1076 follow:]

  Prepared Statements of Hon. John Warner, U.S. Senator From Virginia

                                 S. 470

    Mr. Chairman, members of the Committee, thank you for holding this 
hearing today on a matter that I consider so important.
    I always enjoy returning to this hearing room where I had the 
pleasure of serving previously as a member of this Committee. Thank you 
for allowing me to be here today.
    The fact that you have chosen to discuss our bill, at a time when 
the Energy Policy Act is on the floor of the United States Senate, 
shows me the value that you place on memorializing the legacy of Dr. 
Martin Luther King.
    Dr. King's dream is the fulfillment of the revolutionary words of 
great American patriots such as Thomas Jefferson and it is fitting that 
the two monuments will rest across from each other.
    The idea that all men are created equal is not a novel one. 
However, the actual practice of that equality was dependent upon Dr. 
King's distinct voice and vigorous leadership.
    I have worked with my friend and colleague, Senator Sarbanes, for 
more than 10 years to secure a site on the national mall. I am proud of 
our humble contributions to this project and look forward--with great 
expectation and excitement to the day that we can visit Dr. King's 
memorial in its rightful place--among the truest giants of American 
history and liberty.
    In 1996, we were successful in passing legislation authorizing the 
construction of a memorial. Two years later we were able to authorize 
the location. It then took more time to finalize the actual site with 
the National Capitol Planning Commission and the Commission for Fine 
Arts.
    As the members of this Committee are aware, the Commemorative Works 
Act requires that construction of the Memorial begin by November 2003. 
However, the magnitude of a project like this requires an immense 
amount of time working, planning, and fund-raising.
    Construction costs alone could top $60 million and while we have 
now finalized a site and the Foundation has been successful in its 
fund-raising efforts, it is unlikely that they will have raised the 
necessary funds to receive a construction permit by the end of this 
November.
    We have introduced S. 470 with 42 cosponsors to allow a three year 
extension of the deadline for the construction of Dr. King's memorial. 
The extension will account for the delays in site selection and enable 
the Foundation time to raise the millions of dollars to begin 
construction.
    I had the opportunity to participate in the launch of the 
Foundation's new fund-raising campaign a couple of weeks ago and can 
say that this is a well run operation that will be highly successful. 
This bill is essential for the Foundation to continue its work to bring 
Dr. King's message, legacy, and memory to its rightful home--on the 
National Mall.
    I thank you all for your time and attention to this matter and look 
forward to moving this bill through the process quickly so that we may 
all soon visit this fitting memorial for Dr. King.

                                S. 1076

    Mr. Chairman, Ranking Member Bingaman, and members of the 
Subcommittee, thank you for allowing me to join you today on behalf of 
two bills before the Subcommittee. Both of these bills concern 
memorials on the Mall area, and I have been privileged to be associated 
with each of them for many years.
    I recall vividly the first time I met Jan Scruggs and a couple 
other Vietnam Veterans in 1980 to discuss their idea of creating a 
national memorial to the fallen soldiers of the Vietnam War. They later 
formed the Vietnam Veterans Memorial Fund and became devoted to raising 
private funds to construct a memorial to those 58,000 men and women who 
sacrificed their lives in the Vietnam War. The project's sole mission 
was to create a lasting memorial to pay tribute to American service 
personnel who lost their lives, without regard to the political turmoil 
that surrounded our involvement in Vietnam.
    By 1980, Vietnam has become the forgotten war for most Americans, 
but not for those who were fortunate enough to return home, or for the 
families who had lost loved ones in the war.
    It was a privilege to work with the veterans of the Memorial Fund 
and our former colleague, Senator Mathias, to witness the birth of an 
idea from a few veterans and how it transformed into a national 
commitment to construct this memorial.
    Today, the Vietnam Memorial has exceeded everyone's expectation in 
its silent power and unspoken majesty to heal the emotional scars of 
war, to bring dignity to the sacrifices of so many, and to be our 
national symbol to those surviving veterans and the families who lost 
brothers and sisters that we are a grateful nation.
    The strongest feature of the Wall has been its unexpected power to 
educate. Over these 30 years, the Wall has been the resting place for 
thousands of artifacts brought by fellow Veterans and family members. 
These personal treasures are a living history and evidence of the 
personal struggles and valuable contributions of these 58,000 service 
members and nurses.
    As time moves on minds fade with the facts. Personal stories of 
heroism, bravery and sacrifice will only be with us as long as the 
Vietnam Veteran is with us. This Education Center will be a repository 
for those treasured recollections, pictures and personal memorabilia.
    Mr. Chairman, now is the time to move forward with this Education 
Center. I had every expectation that this legislation would be approved 
last Congress, but we all know how unforeseen events in the last days 
of the session can thwart the best of ideas. Now, we have an early 
opportunity to move forward and I respectfully urge the Committee to 
withhold from expanding the purposes of this legislation.
    I realize that the Committee has concerns about the future of Area 
I of the Mall. I would, however, urge my colleagues to address this 
issue in a separate, free-standing bill so that all of our colleagues 
can consider the facts directly related to this important matter. It 
deserves our full review and debate.
    The question before the Committee should be only the merits of 
enhancing the Vietnam Veterans Memorial with an Education Center that 
is fully financed with private funds. As with our earlier additions to 
The Wall of the Three Servicemen Statue and the Vietnam Women's 
Memorial, the Education Center will significantly further the purposes 
of the Memorial to honor, heal and preserve the memory of the 
sacrifices of service members and nurses of the Vietnam War.

    Senator Thomas. Thank you, Senator, and Senator Sarbanes. I 
appreciate your being here.
    Okay, we will go on then with our first panel, which is 
made up of Daniel Smith, Special Assistant to the Director of 
the National Park Service, and Mr. Raymond DuBois, Director, 
Administration and Management, Department of Defense. 
Gentlemen, thank you. Your full statements will be put in the 
record.
    Senator Campbell. Mr. Chairman, before Senator Warner 
leaves may I just add one comment?
    Senator Thomas. Let us get his attention first, shall we.
    Senator Campbell. Senator Warner.
    Senator Thomas. Senator Warner.
    Senator Campbell. Before you leave, I would just like to 
make a point for the record, how honored many of us are to 
serve with you in your distinguished career, not only in the 
administration and here in the U.S. Senate, but as a military 
man, too.
    Mr. Chairman, Senator Warner and I are I guess the only two 
veterans in the U.S. Senate from the combat era of Vietnam. We 
were just last year at the 50th anniversary of the--excuse me, 
of Korea--50th anniversary of the Korean War. The Republic of 
Korea made a trip over here and there was one staff member and 
two of us that were given a little award for our service over 
there.
    At the time, of course, I did not know Senator Warner. I 
was a young, 18- and 19-year-old and I think he was maybe just 
a little bit older than me. But I look back at that time when 
there were so many of us, regardless of branch of service, that 
were over there, and we come back and do not know a thing about 
each other and maybe meet in later life and we have that very, 
very strong bond of having served together. I just wanted to 
always make sure that people knew how proud I am to serve with 
Senator Warner.
    Thank you.
    Senator Thomas. That is very nice.
    Senator Warner. Well, I thank my distinguished colleague. 
Of course, you realize how many years it took to get a memorial 
to the Korean veterans down on this very piece of land. It is a 
long struggle. Possibly it required an extension of time within 
which to do that.
    But I thank my colleague. I respect you more than you can 
imagine.
    Senator Thomas. He was also in the Marine Corps. That is a 
good sign.
    [Laughter.]
    Senator Thomas. Okay. Mr. Smith, if you could kind of keep 
your statement to 5 or 6 minutes we would appreciate it, and it 
will all be in the record.

        STATEMENT OF P. DANIEL SMITH, SPECIAL ASSISTANT 
             TO THE DIRECTOR, NATIONAL PARK SERVICE

    Mr. Smith. I will try to do that. I will do each of the 
bills in the order in which you introduced them, Mr. Chairman.
    Senator Thomas. Fine, sir. Thank you.
    Mr. Smith. Thank you for the opportunity to present the 
views of the National Park Service on S. 268, a bill to 
authorize the Pyramid of Remembrance Foundation to establish a 
memorial in the District of Columbia or its environs to honor 
members of the armed forces of the United States who have lost 
their lives during peacekeeping operations, humanitarian 
efforts, training, terrorist attacks, or covert operations.
    The National Park Service commends the idea of establishing 
a memorial to honor these brave men and women and we believe it 
would be an appropriate way of recognizing the sacrifice of 
those who lost their lives in events that are not formally 
declared wars. However, we recommend that the sponsors of the 
bill work with the Departments of Defense and the Interior to 
provide an amendment to consider that such a memorial might be 
established at an appropriate location consistent with the 
Commemorative Works Act.
    The National Capital Memorial Commission, which is 
responsible for advising Congress on legislation authorizing 
memorials within the District of Columbia and its environs 
under the Commemorative Works Act, has taken a position on this 
bill. The Commemorative Works Act provides that a military 
commemorative work may only be authorized in areas administered 
by the National Park Service or the General Services 
Administration in the District of Columbia to commemorate a war 
or similar major military conflict or to commemorate a branch 
of the armed services. Because authorizing this type of 
memorial in these areas is inconsistent with this section of 
the act, the commission has advised that the most appropriate 
placement for it would be on a military property. The National 
Park Service concurs with the commission on that matter.
    Mr. Chairman, that concludes my remarks on S. 268 and we 
will be happy to answer questions later.
    Mr. Chairman, the second bill that the Department would 
like to comment on is S. 296, a bill to require the Secretary 
of Defense to report to Congress regarding the requirements 
applicable to the inscription of veterans' names on the 
memorial wall of the Vietnam Veterans Memorial. Because the 
legislation authorizes a study that would be undertaken by the 
Department of Defense, the Department of the Interior has not 
taken a position on this bill. However, as the agency that 
serves as the steward of the Vietnam Veterans Memorial, we have 
some brief comments about the subject of the study.
    As we understand it, a primary impetus for S. 296 is to 
provide recognition for the 74 service members who died aboard 
the U.S.S. Frank E. Evans in June 1969 as a result of a 
training accident while outside the combat zone. However, there 
could be hundreds of other veterans whose deaths were closely 
associated with military operations in Southeast Asia during 
the Vietnam era who do not meet the Department of Defense's 
current eligibility requirements for inscription on the 
memorial wall, and that is of a concern to the Department, Mr. 
Chairman.
    We are sympathetic to the desire to recognize the 
sacrifices of men and women who gave their lives while serving 
their country during the Vietnam era, but whose names do not 
meet the eligibility requirement that was established by the 
Department of Defense 20 years ago when the memorial was built. 
We are concerned that adding a large number of new names to the 
memorial wall would detract from the power and beauty of the 
simple black granite wall that evokes such a strong emotional 
response in visitors.
    There are currently 58,235 names on the wall that are 
inscribed in close chronological order of the date of casualty. 
At the direction of the Secretary of Defense, the National Park 
Service permits additions to the memorial wall from time to 
time. Over 200 names have been added since 1982. But, Mr. 
Chairman, the truth of the matter is there is so limited space 
left on the wall we are talking about possibly only 24 names, 
24, 25 names that could be added to the wall as it exists 
today.
    To add more than a few more names, the wall would need to 
be significantly redesigned. Any potential changes to the wall 
may carry a substantial risk of diminishing the power of the 
memorial.
    We are also concerned about possible alternative means of 
providing recognition for veterans whose names are not eligible 
for the wall. Several design elements have been added to the 
Vietnam Veterans Memorial since the original wall was built. 
Each addition increases the risk that the original work, the 
simple black granite wall, will be diminished. We are therefore 
cautious about embarking on a path that could lead to the 
addition of yet another design element at the memorial.
    We are pleased that the study authorized by S. 296 would 
require consultation with the Secretary of the Interior, among 
others, so that if this legislation is enacted we would have 
the opportunity to express our concerns. We would also suggest 
that another entity that should be included is consultation 
with the Commission of Fine Arts. As one of the commissions 
that reviews proposals for structures to be added to the 
monumental core, their views on the feasibility of providing 
recognition for an additional group of veterans at the Vietnam 
Veterans Memorial are critical.
    That concludes my testimony and we look forward to 
answering questions, Mr. Chairman.
    The third bill, Mr. Chairman, is to present the views of 
the Department of the Interior on S. 470, a bill that would 
grant a 3-year extension of the legislative authority for 
construction of the memorial to Martin Luther King, Jr., in 
Washington, D.C. Mr. Chairman, the Department supports this 
legislation. We believe it wholly appropriate for Congress to 
grant more time to the Martin Luther King, Jr., National 
Memorial Project Foundation, Inc., the organization responsible 
for establishing the memorial, to raise the funds necessary to 
build what we believe will be a fitting tribute to the man who 
is recognized as the preeminent leader of the American civil 
rights movement of the 20th century.
    Senator Sarbanes recapped that this authorization for this 
memorial has moved forward over the past 5 or 6 years, Mr. 
Chairman. Since passage in 1996, in 1998 Area I authorization 
was enacted. In 1999, a site for the memorial on the northwest 
side of the Tidal Basin was approved by the Secretary of the 
Interior, the National Capital Planning Commission, and the 
Commission of Fine Arts.
    A wonderful, far-reaching competition was held and a design 
has been selected and the foundation is preparing an 
environmental assessment now which is necessary for final 
approval of the design. The National Park Service looks forward 
to working with them on that final approval. And the foundation 
is actively raising funds.
    Extensions of legislative authority have been granted 
before under the Commemorative Works Act for other memorials. 
This sets no precedent and, again, the Department supports this 
very worthwhile legislation.
    Mr. Chairman, that concludes my testimony on this bill.
    On the fourth bill, Mr. Chairman, the Department of the 
Interior's views on S. 1076, which would authorize the Vietnam 
Veterans Memorial Fund to construct an education center to 
provide information to the public on the Vietnam Veterans 
Memorial. We are deeply appreciative of the sacrifices made by 
the men and women who bravely served our country in Vietnam. 
The Park Service shares the interest of the congressional 
sponsors of S. 1076 in having the American public, particularly 
younger generations, to better understand and appreciate the 
extraordinary burden borne by those who fought for our country 
during a most difficult, divisive, and painful time in our 
Nation's history.
    The veterans who served our Nation in Vietnam are honored 
here in the Nation's capital in what many view as one of the 
most emotionally moving memorials ever created. We are 
privileged to be the stewards of this memorial. In that role we 
are well aware of the deeply emotional experience visitors have 
when they see the wall. We believe it is extremely important 
that nothing detract from the powerful emotion that the 
memorial evokes as it is that emotion that helps keep alive the 
public's appreciation of those who served in Vietnam.
    The Department wants to ensure that a structure on or 
adjacent to the Vietnam Veterans Memorial, as envisioned by S. 
1076, will not detract from visitors' experience at the Vietnam 
Veterans Memorial and the nearby Lincoln Memorial. We believe 
there may be other more suitable alternatives to the proposed 
visitors center that should be explored and we would like to 
work with this committee, the Vietnam Veterans Memorial Fund, 
and the commissions that view these memorials to find an 
alternative way of fulfilling the goal of this legislation.
    Mr. Chairman, the goal of building what was called a 
visitors center and is now called an educational center at the 
Vietnam Veterans Memorial has been the subject of hearings and 
news accounts over the past three years. We have gone from a 
1,200 square foot above-ground facility located very near the 
current 168 square foot kiosk, and that was reviewed by the 
commissions that are so active in dealing with the 
Commemorative Works Act and they opposed that proposal, and the 
Department testified in opposition to it in testimony before 
this Senate subcommittee in 2001.
    The second publicized design concept was an 8,000 square 
foot underground facility which would include a substantial 
above-ground entrance. The Director of the National Park 
Service in a letter to the president of Vietnam Veterans 
Memorial Fund indicated Park Service support for a concept of 
an underground facility so long as it was appropriately sized 
and sited, acceptable visually, and had a minimum of 
distracting qualities to the visitor experience. The Director 
committed the National Park Service to consult with the fund as 
well as the National Capital Memorial Commission, the 
Commission of Fine Arts, and the National Capital Planning 
Commission on the options available to enhance the 
interpretation of the memorial.
    At the time that letter was written we believed it might be 
possible to design an underground facility for the memorial 
that in fact was appropriately sized and sited for the 
memorial. Since that time, however, the National Park Service 
and representatives of the three commissions have expressed 
serious concerns about that design.
    The third design concept was discussed at a hearing on H.R. 
1442, very similar to S. 1076, held 2 weeks ago by the House 
Resources Subcommittee on National Parks, Recreation and Public 
Lands. At that hearing the Vietnam Veterans Memorial Fund 
discussed plans for a 10,000 square foot underground facility 
with an entrance located at the site where the information 
kiosk stands.
    Mr. Chairman, all of these bills that I have testified on 
today have one thread in common and that is the Commemorative 
Works Act, which tries to deal very straightforwardly with 
these issues on the National Mall. This one is viewed as 
problematic, for lack of a better verb, because, number one, it 
sets a precedent. The landscape solutions for the Vietnam 
Veterans Memorial, the Korean War Memorial, and the World War 
Two Memorial have not allowed visitor/education centers, and we 
do worry about the precedent that will be set if one is built 
for Vietnam. We built the memorials in reverse order of the 
wars; will we do visitor/education centers in the same way?
    So these are legitimate concerns as the Park Service hopes 
to work with the VVMF and the committees to craft a bill that 
will hopefully address the concerns that the legislation is 
trying to address. The Department is fully committed to 
educating the public about the Vietnam Veterans Memorial and 
the men and women who served our Nation in Vietnam. We have 
worked closely with the Vietnam Veterans Memorial Fund these 
past 20 years with the memorial that we share such serious 
management duties on. In coordination with the committee, we 
would like to investigate alternatives. We are open to broad 
discussions of how to address this issue, and I will not go 
into those in detail, Mr. Chairman. They are in my testimony.
    The goal of S. 1076 of educating the public about Vietnam 
is an admirable one and one that the Department has fully 
supported and will continue to support. We look forward to 
working closely with the committee to fulfill the spirit of the 
legislation. Mr. Chairman, that concludes my remarks and we 
look forward to questions.
    [The prepared statements of Mr. Smith on S. 268, S. 296, S. 
470, and S. 1076 follow:]

       Prepared Statements of P. Daniel Smith, Special Assistant 
                 to the Director, National Park Service

                                 S. 268

    Mr. Chairman, thank you for the opportunity to present the views of 
the National Park Service on S. 268, a bill to authorize the Pyramid of 
Remembrance Foundation to establish a memorial in the District of 
Columbia or its environs to honor members of the Armed Forces of the 
United States who have lost their lives during peacekeeping operations, 
humanitarian efforts, training, terrorist attacks, or covert 
operations.
    The National Park Service commends the idea of establishing a 
memorial to honor these brave men and women, as we believe it would be 
an appropriate way of recognizing the sacrifice of those who lost their 
lives in events that are not formally declared wars. However, we 
recommend that the sponsors of the bill work with the Departments of 
Defense and the Interior to provide an amendment to consider that such 
a memorial might be established at an appropriate location consistent 
with the Commemorative Works Act.
    The National Capital Memorial Commission, which is responsible for 
advising Congress on legislation authorizing memorials within the 
District of Columbia and its environs under the Commemorative Works Act 
of 1986, has considered this proposal and similar ones introduced in 
previous Congresses several times, most recently on May 22, 2003. 
Section 8903(b) of the Commemorative Works Act (40 U.S.C., Chapter 89, 
``National Capital Memorials and Commemorative Works'') provides that a 
military commemorative work may only be authorized in areas 
administered by the National Park Service or the General Services 
Administration in the District of Columbia to commemorate a war or 
similar major military conflict or to commemorate a branch of the Armed 
Services. Because authorizing this type of memorial in these areas is 
inconsistent with this section of the Act, the Commission has advised 
that the most appropriate placement for it would be on a military 
property. The National Park Service concurs with the Commission on this 
matter.

                                 S. 296

    Mr. Chairman, thank you for the opportunity to appear before you 
today to present the Department of the Interior's views on S. 296, a 
bill to require the Secretary of Defense to report to Congress 
regarding the requirements applicable to the inscription of veterans' 
names on the memorial wall of the Vietnam Veterans Memorial.
    Because the legislation authorizes a study that would be undertaken 
by the Department of Defense, the Department of the Interior has not 
taken a position on this bill. However, as the agency that serves as 
the steward of the Vietnam Veterans Memorial, we have some brief 
comments about the subject of the study.
    S. 296 would require the Secretary of Defense, with the 
participation of the Secretary of the Interior and others, to conduct a 
study to: (1) identify veterans who died in southeast Asia during the 
Vietnam era and whose names are not eligible for inscription on the 
memorial wall; (2) evaluate the feasibility and equitability of 
revising the eligibility requirements for the inscription of names on 
the memorial wall to be more inclusive of such veterans; and (3) 
evaluate the feasibility and equitability of creating an appropriate 
alternative means of recognition for such veterans. As we understand 
it, a primary impetus for S. 296 is to provide recognition for the 74 
service members who died aboard the U.S.S. Frank E. Evans in June, 1969 
as a result of a training accident while outside the combat zone. 
However, there could be hundreds of other veterans whose deaths were 
closely associated with military operations in southeast Asia during 
the Vietnam era who do not meet the Department of Defense's current 
eligibility requirements for inscription on the memorial wall.
    We are sympathetic to the desire to recognize the sacrifices of men 
and women who gave their lives while serving our country during the 
Vietnam era, but whose names do not meet the eligibility criteria that 
was established by the Department of Defense 20 years ago when the 
memorial was first built. However, providing that recognition at the 
Vietnam Veterans Memorial could diminish the aesthetic qualities that 
make this memorial, in the view of many, one of the most emotionally 
moving memorials ever built.
    We are concerned that adding a large number of new names to the 
memorial wall would detract from the power and beauty of the simple 
black granite wall that evokes such a strong emotional response in 
visitors. There are currently 58,235 names on the wall that are 
inscribed in the chronological order of the date of casualty. At the 
direction of the Secretary of Defense, the National Park Service 
permits additions to the memorial wall from time to time. Depending on 
the availability of space and the number of letters in a name to be 
inscribed, the inscription is placed as close as possible to the 
chronological order of the date of casualty. Space for additional names 
is becoming increasingly scarce. To add more than a few more names, the 
wall would need to be significantly redesigned. Any potential changes 
to the wall may carry a substantial risk of diminishing the power of 
this memorial.
    We are also concerned about possible alternative means of providing 
recognition for veterans whose names are not eligible for the wall. 
Several design elements have been added to the Vietnam Veterans 
Memorial since the original wall was built. Each addition increases the 
risk that the original work, the simple black granite wall, will be 
diminished. We are, therefore, cautious about embarking on a path that 
could lead to the addition of yet another design element at the 
memorial, both for its own sake and also because it might encourage 
more additions in the future.
    We are pleased that the study authorized by S. 296 would require 
consultation with the Secretary of the Interior, among others, so that 
if this legislation is enacted, we would have the opportunity to 
express these concerns. We would suggest that another entity that 
should be included for consultation purposes is the Commission of Fine 
Arts. As one of the commissions that reviews proposals for structures 
to be added to the monumental core, their views on the feasibility of 
providing recognition for an additional group of veterans at the 
Vietnam Veterans Memorial are critical.

                                 S. 470

    Mr. Chairman, thank you for the opportunity to appear before you 
today to present the views of the Department of the Interior on S. 470, 
a bill that would grant a three-year extension of the legislative 
authority for construction of the memorial to Martin Luther King, Jr., 
in Washington, D.C.
    The Department supports this legislation. We believe it is wholly 
appropriate for Congress to grant more time to the Martin Luther King, 
Jr. National Memorial Project Foundation, Inc., the organization 
responsible for establishing the memorial, to raise the funds necessary 
to build what we believe will be a fitting tribute to the man who is 
recognized as the preeminent leader of the American civil rights 
movement of the 20th Century.
    The authorization to establish the Martin Luther King, Jr. Memorial 
was enacted on November 12, 1996, as Public Law 104-333. Under the 
Commemorative Works Act of 1986, authorizations for memorials expire at 
the end of the seven-year period after an authorization is enacted, 
unless a construction permit for the memorial has been issued. The 
Foundation does not expect to have raised the necessary funds to 
receive the construction permit by November 12, 2003. Therefore, the 
authorization for the memorial will expire on that date unless it is 
extended by law.
    Much progress has been made toward establishing the Martin Luther 
King, Jr. Memorial since it was authorized in 1996. In 1998, an ``Area 
I'' authorization was enacted. Area I authorizations are joint 
resolutions that Congress must pass deeming a subject matter of 
``preeminent historical and lasting significance to the Nation'' in 
order for a memorial to be built in the area designated as Area I under 
the Commemorative Works Act. Area I, the heart of the monumental core, 
encompasses the National Mall and Tidal Basin areas.
    In 1999, a site for the memorial, on the northwest side of the 
Tidal Basin, was approved by the Secretary of the Interior, the 
National Capital Planning Commission, and the Commission of Fine Arts. 
A competition was held and a design concept for the memorial was chosen 
from the approximately 900 entries submitted. Currently, the Foundation 
is preparing an environmental assessment, which is necessary for final 
approval of the design. It is expected to be released for public 
comment shortly. In the meantime, the Foundation is actively engaged in 
fundraising for the memorial. Foundation representatives told the 
National Capital Memorial Commission recently that they have received 
pledges for about $25 million of the approximately $100 million needed 
and intend to raise the balance in the next three years.
    Extensions of legislative authority have been granted before for 
other memorial projects. Memorials authorized to be constructed in the 
Nation's Capital must go through time-consuming procedural steps. If 
they are relatively large memorials, as the Martin Luther King, Jr. 
Memorial will be, raising the necessary funds is often a daunting 
challenge. Three recently constructed memorials Women in Military 
Service for America, World War II and George Mason--were granted time 
extensions. Three authorized but not yet constructed memorials Black 
Revolutionary War Patriots, Thomas Paine, and Victims of Communism--
were granted extensions similar to that proposed under S. 470.
    Establishing a sunset clause for memorial projects has been a 
policy of the Congress for more than 60 years. This policy ensures that 
memorial sites will not be held indefinitely if, for funding or other 
reasons, the sponsors of a memorial are not able to build it. 
Nevertheless, the granting of at least one extension to the initial 
authorization has precedent, particularly in those circumstances when a 
memorial sponsor has taken the time required to obtain an Area I 
authorization.

                                S. 1076

    Mr. Chairman, thank you for the opportunity to present the 
Department of the Interior's views on S. 1076, which would authorize 
the Vietnam Veterans Memorial Fund to construct an education center to 
provide information to the public on the Vietnam Veterans Memorial.
    We are deeply appreciative of the sacrifices made by the men and 
women who bravely served our country in Vietnam. We share the interest 
of the congressional sponsors of S. 1076 in having the American public, 
particularly younger generations, better understand and appreciate the 
extraordinary burden borne by those who fought for our country during a 
most difficult, divisive, and painful time in our nation's history.
    The veterans who served our nation in Vietnam are honored here in 
the Nation's Capital in what many view as one of the most emotionally 
moving memorials ever created. We are privileged to be the steward of 
this memorial. In that role, we are well aware of the deeply emotional 
experience visitors have when they see the Wall. We believe that it is 
vitally important that nothing detract from the powerful emotion that 
the memorial evokes, as it is that emotion that helps keep alive the 
public's appreciation of those who served in Vietnam. For this reason, 
as well as others, we give careful and cautious consideration of any 
proposal to add a new structure to the memorial.
    The Department wants to ensure that a structure on or adjacent to 
the Vietnam Veterans Memorial, as envisioned by S. 1076, will not 
detract from visitors' experience at the Vietnam Veterans Memorial, and 
the nearby Lincoln Memorial. We believe there may be other more 
suitable alternatives to the proposed visitor center that should be 
explored. We would like to work with the committee to identify 
alternative ways of fulfilling the goal of this legislation.
    S. 1076 would authorize the Vietnam Veterans Memorial Fund to 
construct an education center to provide information to the public on 
the memorial. The bill would authorize the center to be located either 
above ground or underground, on or adjacent to the memorial. S. 1076 
requires the visitor center to be located in a way that prevents 
interference with or encroachment on the memorial and protects open 
space and visual sightlines on the National Mall, and constructed and 
landscaped in a manner that is consistent with the Memorial and the 
National Mall. We appreciate that S. 1076 seeks to be sensitive to 
siting and design concerns that have been raised since similar 
legislation was first introduced three years ago.
    As you know, several elements have already been added to the 
original black granite wall that were not part of the original design. 
They include the flagpole and the Three Servicemen statue, the Memorial 
to Women who Served in Vietnam that was constructed in 1993, and most 
recently, the In Memory Plaque, to those veterans who died after the 
war as a direct result of their military service in Vietnam, which was 
authorized in 2000. With each addition, the Department has been 
concerned about the risk of diminishing the original work. The proposed 
addition of an education center at the site poses a significant new 
challenge, since it would not be just another memorial element but, 
instead, a relatively large structure adjacent to the memorial.
    A similar view is shared by the two commissions that, by law, 
review proposals for structures in the monumental core--the National 
Capital Planning Commission and the Commission of Fine Arts as well as 
the National Capital Memorial Commission, which advises the Secretary 
of the Interior and Congress on such proposals. Since the time 
legislation authorizing construction of a visitor or education center 
was first introduced, three design concepts have been publicized. One 
was a 1,200-square-foot above-ground facility that would be sited where 
the existing 168-square-foot information kiosk currently stands. All 
three commissions were opposed to that proposal, and the Department 
testified in opposition to it in testimony before the Senate 
Subcommittee on National Parks in July, 2001.
    The second publicized design concept was an 8,000-square-foot 
underground facility, which would include a substantial above-ground 
entrance. In a February, 2002 letter to the President of the Vietnam 
Veterans Memorial Fund, the Director of the National Park Service 
indicated support for the concept of an underground facility, so long 
as it was appropriately sized and sited, acceptable visually, and had a 
minimum of distracting qualities to the visitor experience. The 
Director committed the National Park Service to consult with the Fund, 
as well as the National Capital Memorial Commission, the Commission of 
Fine Arts, and the National Capital Planning Commission on the options 
available to enhance the interpretation of the memorial.
    At the time that the letter was written, we believed that it might 
be possible to design an underground facility for the memorial that 
was, in fact, appropriately sized and sited for the memorial. Since 
that time, however, the National Park Service has consulted with 
representatives of the three commissions. They have expressed serious 
concerns that, because of the practical need for a large above-ground 
entrance, it would be virtually impossible to design an underground 
facility in close proximity to the memorial that is not intrusive on 
the visitor experience. In a public meeting in September, 2002, with 
the National Park Service representative abstaining, the National 
Capital Memorial Commission--which includes representation from the 
other two commissions--voted unanimously to oppose construction of an 
underground visitor center at the Vietnam Veterans Memorial.
    The third design concept was discussed at the hearing on H.R. 1442, 
similar to S. 1076, held two weeks ago by the House Resources 
Subcommittee on National Parks, Recreation and Public Lands. At that 
hearing, the witness for the Vietnam Veterans Memorial Fund discussed 
plans for a 10,000-square-foot underground facility, with the entrance 
located at the site where the information kiosk stands.
    In addition, members of the three commissions are concerned about 
the precedent a facility of this type would set for other memorials. 
Structures similar to that proposed by H.R. 1442 have been disapproved 
or precluded at the Franklin Delano Roosevelt, World War II, and Martin 
Luther King, Jr. Memorials because they would detract from the visitor 
experience. These types of structures run counter to the Memorials and 
Museums Master Plan, which was endorsed by all three commissions after 
extensive public review. If an education center is allowed to be 
constructed at the Vietnam Veterans Memorial, it will make it much more 
difficult to deny proposals for such facilities at other similar 
memorials, despite both previous denials of such proposals and the 
guidelines opposing these structures contained in the approved Master 
Plan.
    The Department is fully committed to educating the public about the 
Vietnam Veterans Memorial and the men and women who served our nation 
in Vietnam. For more than ten years, the Smithsonian has displayed an 
exhibit of the offerings left at the Vietnam Veterans Memorial and 
collected by National Park Service rangers. Other exhibits of offerings 
collected by the National Park Service have traveled to schools, 
universities, museums and veterans centers all over the world. In 
addition, the National Park Service has published a book and CD-ROM on 
the history of the memorial and runs a website designed to educate 
children about museum collections, including those associated with the 
Vietnam Veterans Memorial. The National Park Service has been involved 
in a number of news programs and television specials on the Vietnam 
Veterans Memorial and the history of our nation's involvement in 
Vietnam.
    In coordination with the committee, we would like to investigate 
various alternatives for fulfilling the goal of this legislation. Two 
ideas we would like to explore are (1) enhancing the existing visitor 
kiosk and interpretation at the memorial, and (2) studying sites near 
the Mall where a visitor or education center for the Vietnam Veterans 
Memorial could be located. We are open to other ideas, as well, that 
the committee, or the Vietnam Veterans Memorial Fund, or others may 
suggest.
    On the first idea we mentioned, we think that it might be possible 
to modify the information kiosk at the Vietnam Veterans Memorial to 
include computerized touchscreens that visitors could access to find 
information about the memorial, and individuals who served in Vietnam. 
The use of computer technology and touchscreens would enable a wide 
variety of periodically revolving information to be provided to 
visitors. This type of technology is already in use at the Korean War 
Veterans Memorial, and is planned for the World War II Memorial. Along 
with enhancing the visitor kiosk, the National Park Service would want 
to work with the Vietnam Veterans Memorial Fund to develop more 
extensive visitor outreach and interpretive programs that do not 
necessitate a new structure.
    On the other idea, we would undertake a study to identify sites 
near the Mall that are feasible for a visitor or education center 
specifically for the Vietnam Veterans Memorial. We would expect to work 
closely with the Vietnam Veterans Memorial Fund, as well as the 
committee, in conducting this study.
    The goal of S. 1076 of educating the public about Vietnam is an 
admirable one, and one that the Department has fully supported and will 
continue to support. We believe that the two possible courses we have 
suggested could lead to excellent opportunities to educate visitors 
about the men and women who served our nation in Vietnam, and would do 
so while preserving the sanctity of the memorial so that it 
appropriately honors them. And, as I mentioned, we are open to other 
ideas for pursuing the same goal. We look forward to working closely 
with the committee to fulfill the spirit of this legislation.
    Mr. Chairman, that concludes my statements. I would be pleased to 
answer any questions that you or other members of the committee may 
have.

    Senator Thomas. Thank you very much.
    There is a town in Wyoming called ``Due-BOYS.'' There is a 
president of the university called ``Due-BWAH.'' Which do you 
prefer?
    Mr. DuBois. My grandfather emigrated to this country from 
French Canada when he was a baby before the turn of the 
century, the last century, and he was Leonel Pierre ``Due-
BWAH,'' after whom I have named my son, and therefore I use 
that pronunciation.
    Senator Thomas. Very well. Mr. DuBois, would you care to go 
ahead.
    Mr. DuBois. I am familiar with Dr. Philip DuBois of the 
University of Wyoming.
    Senator Thomas. Are you? Good.

     STATEMENT OF RAYMOND F. DuBOIS, DIRECTOR, WASHINGTON 
   HEADQUARTERS SERVICES, OFFICE OF THE SECRETARY OF DEFENSE

    Mr. DuBois. Thank you, Mr. Chairman, on behalf of Secretary 
Rumsfeld to have this opportunity to appear before this 
subcommittee and to testify on the four bills that your letter 
of invitation identifies. Now, as a practical matter, I want to 
use the few minutes available to me in my opening remarks to 
share with you some of my observations and thoughts about S. 
296, which is the eligibility requirements bill with respect to 
the Vietnam Veterans War Memorial.
    The reason that I am here testifying for the Secretary is 
that the Directorate of Information and Operations and Reports 
comes under my supervision as the Director of Administration 
and Management of the Office of the Secretary of Defense. We 
have the serious task of collating and statistically 
identifying the casualties from our Nation's wars.
    In addition, as Senator Akaka knows, before whom I have 
testified many times, I am also the Deputy Under Secretary of 
Defense for Installations and Environment and as such represent 
the Secretary on the National Capital Planning Commission.
    Two other reasons why I am particularly honored to be here 
today. I am a D.C. native. I grew up in this town. I played on 
the Mall as a child and wandered the halls of the Smithsonian. 
My mother sometimes used to say that it was my day care center. 
I am very appreciative of that wonderful, wonderful place and 
all that it means, not just to those of us who grow up in this 
town but to all Americans.
    Finally, I am a Vietnam veteran and therefore I want to, as 
I indicated, share some thoughts, some personal thoughts, about 
S. 296, which is a bill, as you know, which would require the 
Secretary of Defense to conduct a study and report to the 
Congress regarding the requirements applicable to the 
inscription of names on the Vietnam Veterans Memorial wall.
    As my good friend and fellow Vietnam vet Dan Smith has 
testified, 58,000-plus names are inscribed on over 140 panels 
on the shiny black granite reverently referred to as ``the 
wall.'' It is with great care that the Department of Defense 
reviews requests for names to be added to the wall.
    The eligibility criteria for inscribing names on the wall 
consists basically of two specific time periods as well as the 
conditions under which and the place where a Service member 
died: first, from November 1, 1955, the formal beginning of the 
U.S. military involvement in Vietnam for purposes of naming 
casualties, to December 31, 1960. Any Service member who died 
in Vietnam during that time frame is eligible to have their 
name on the wall. The second time frame is on or after January 
1, 1961, to May 1975. Any Service member who died in the 
defined combat zone as delineated by the Joint Chiefs of Staff 
and who died as a result of wounds sustained in that combat 
zone or who died while participating in or providing direct 
support to a combat mission, immediately en route to or 
returning from a target within that combat zone during that 
time is eligible.
    Now, the Defense Department recognizes that many, many 
others served and lost their lives during the war effort. 
However, they do not meet the criteria I just mentioned and 
therefore are not listed on the wall. In fact, in June 2000, 
Congress, in an effort to honor the Vietnam veterans who died 
after service in the Vietnam War and who did not meet the 
eligibility for placement on the memorial wall, passed Public 
Law 106-214 authorizing the American Battle Monuments 
Commission to place a plaque within the memorial in their 
honor. I was given just a few minutes ago what that plaque 
would look like, as it is yet to be placed, but it reads as 
follows: ``In memory of the men and women who served in the 
Vietnam War and later died as a result of their service, we 
honor and remember their sacrifice.''
    The Secretary of Defense believes that an appropriate 
additional recognition such as the one that I just read to the 
many men and women whose deaths were somehow associated with 
the Vietnam War is deserving. However, the Secretary stands by 
the current eligibility criteria for inscribing names on the 
Vietnam Memorial.
    The Vietnam Veterans Memorial was established to pay 
tribute to all who served during the Vietnam War. In fact, it 
has become a reverential place, I would suggest, for all 
Americans whether they served or not. But, the uniqueness it 
seems to me, Mr. Chairman, of having one's name inscribed on 
that wall is that it gives special recognition to those who 
died within the combat zone or in direct support of combat 
missions in that combat zone or as a result of the wounds 
sustained while serving there.
    This attribute, this single attribute, is what gives the 
wall its emotional impact. I believe it is why when I go to the 
wall I feel such a deep sense of gratitude to those of my 
comrades in arms of my generation who died there, in that 
place, in that time, for those reasons.
    From time to time, I think back on my young year in the 
Army in Vietnam, now some 35 years ago, and I also remember 
standing in a cold drizzle in front of that wall as it was 
dedicated now 20-plus years ago, and I hope that President 
Ronald Reagan was right when he said to me and my fellow 
Vietnam veterans several years later that we had honorably 
fought in a noble cause. For those of my brothers who fell in 
that combat zone, not to return, their names on that wall is a 
small honor I wish to respect.
    I am prepared to address and answer questions on both S. 
296 as well as the other three bills, but I again appreciate 
the opportunity to share my thoughts with you. Thank you.
    Senator Thomas. Thank you so much. Thanks to both of you. 
We appreciate it. A few questions probably.
    Mr. Smith, has the Park Service or anyone done a 
feasibility study regarding the Pyramid of Remembrance?
    Mr. Smith. We have not, Mr. Chairman, because it has not 
become law yet. However, the commissions in looking at it have 
certainly looked at the concept and think it is a very 
commendable idea. It is just where would it be placed, and for 
the bill to have it going into an Area II, it just runs up 
against the Commemorative Works Act.
    I must say that in reviewing the testimony for it, now that 
I understand it to be another naming memorial, which means to 
put a continuing amount of names on it, we are finding out the 
difficulty in naming memorials. We have another common thread 
through several of these here today of who really qualifies and 
that type of thing. We had that question come up in testimony 
last year before Congress on a terrorism memorial for the Mall, 
of how you would go back in history, to where do we start to 
recognize people that have been caught up in terrorism.
    So it has been looked at, but no, we have not done a 
feasibility study directly on it.
    Senator Thomas. Let us see. Did you indicate, does the Park 
Service have any contingency plans for accommodating some 
additional names? You mentioned there is just a few spots left.
    Mr. Smith. On the Vietnam Veterans Memorial? Not really 
contingency plans. We obviously are very concerned that the 
wonderful design that the country has come to reflect upon down 
there--obviously, certainly nothing as drastic as thinking 
about adding additional panels or anything to it, and we have 
not. Part of that has been addressed in other legislation where 
there have been plaques, added inscriptions to it, in that 
regard.
    But no, Mr. Chairman, there is no other contingency plan to 
do anything with that memorial that would allow names to be 
added directly on it.
    Senator Thomas. On the Vietnam Visitors Educational Center, 
are you suggesting that there could be a design that would fit 
into the Mall, do you think?
    Mr. Smith. We would like to discuss that as part of other 
alternatives. Obviously, architects can do wonderful things in 
a landscape setting. We have concerns about the Vietnam 
Veterans Memorial itself, where it would be cited adjacent or 
near that that would not interfere with the memorial.
    Size is becoming even more of a concern now, of what size 
this would eventually be, what exactly would be interpreted or 
taught in it. Ironically, some type of an education center 
would allow a chance to do other names without having to affect 
the wall. So it is all very intertwined. Again, the Director's 
letter said we would like to consider doing it. But really, a 
tremendous amount of concern on size, location, and exactly how 
that would be done and what would be interpreted are all things 
that as these type of issues are moved through the commissions 
that address them they get worked out.
    The siting of the Vietnam Veterans Memorial before the 
Commemorative Works Act actually led to that act and the end 
result is that the memorial is worldwide known and it works 
wonderfully in that site where people had concern about it 
many, many years ago.
    Again, we are open to looking at all kinds of 
considerations. Underground seems to make more sense than 
above-ground, but there has to be an above-ground entranceway 
into it. We have security concerns. You have to get the 
disabled under ADA into it. So even something that you think 
can be underground has to have an above-ground part to it, and 
those are all things that no design has really come before the 
Park Service. Anything that has been discussed on this by the 
commissions is in their advisory role because Congress had not 
passed legislation. And obviously, like so many things in life, 
the devil really is in the details on these things. We need a 
lot more discussion on this to see, if it is feasible, how best 
would it be accomplished.
    Senator Thomas. Do you think there would be then interest 
in having a similar educational center for World War II or 
Korea or the other memorials?
    Mr. Smith. Mr. Chairman, we certainly know that there was 
that interest at the World War II. The original design had, I 
believe, 100,000 plus or minus square feet that would have been 
for wonderful museum type interpretive space. The memorial that 
will be completed next summer, dedicated next summer, ended up 
going through the commissions and has none of that. It has 
basically the basic restrooms and a visitor contact kiosk type 
of arrangement, as does the Korean War Memorial, but no 
visitor/education/interpretive centers.
    This does raise a tremendous precedent for people who would 
want those for the other wars.
    Senator Thomas. Sure. This reserve area that was set aside 
pretty much by the commission and by this committee and so on, 
there is now--I guess the thought is to keep that pretty much 
as it is and have the memorials be in what is then Area II, 
outside of the reserve area; is that your view?
    Mr. Smith. The reserve concept administratively--of course 
it has not become law. But administratively, the Park Service 
and the Commemorative Works Act actually does look at either 
this exact reserve configuration or something very close to it, 
the Mall area, looks to be very protective to what could go 
there, although in saying that we all have been here in 
Washington to watch an awful lot be built over the last 20 
years even though those concerns are there.
    But the reserve as you view it, Mr. Chairman, and as you 
held an oversight hearing on it, I believe as recently as last 
year, in some ways it does make tremendous sense. There are 
people, though, that think there are a few more presidents who 
would need to be recognized at some point in time. But of 
course, Congress could always waive the act. You have that 
discretion, and the president could sign it into law.
    But the reserve concept administratively has taken on 
where--when you say ``the reserve,'' Senator, the Park Service 
does know of what you speak and administratively through the 
Commemorative Works Act has tried to concur with that.
    Senator Thomas. Talk about presidents. Washington--the 
Roosevelt was developed later and is not in that area, is that 
correct?
    Mr. Smith. It technically is--let us see.
    Senator Thomas. It is not in the reserve.
    Mr. Smith. No, it is not in the reserve, no, sir, no, 
Senator.
    Senator Thomas. Senator, can I go to the ranking member 
here first?
    Senator Campbell. Yes.
    Senator Akaka. Thank you very much, Mr. Chairman.
    It is good to see both of you here today, Mr. Smith and Mr. 
DuBois. I just want to understand what the administration's 
position is, so this question is to both of you. As I 
understand your testimony, and this is having to do with the 
Pyramid of Remembrance Memorial, which is S. 268--as I 
understand your testimony, the Department of the Interior would 
support the proposal if the memorial were placed on military 
property; the Department of Defense does not oppose it, but 
does not want it to be located, I take it, on a military 
reservation.
    So my question to you, both of you, can you help me 
reconcile both of your statements on the administration's 
position on S. 268?
    Mr. Smith.
    Mr. Smith. Yes, I can partially do that, Senator. The 
precedent for this would be for a memorial like this--and again 
I do not know if sizewise it would fit, but as it went through 
consideration. So many memorials that sort of fall into this 
category of certainly wanting recognition and honor in this 
country to events that have affected people's lives, it has 
been Arlington National Cemetery. There is a monumental 
capability there that already recognizes Somalia, the 
Challenger Space Shuttle, six or seven others I could certainly 
provide for the record.
    That technically is military land and not National Park 
Service land. The fact that the bill has it going to an Area II 
rather than an Area I makes it certainly less of an obstacle, 
but still it runs contrary to the Commemorative Works Act for 
something like this.
    The 9/11 Memorial at the Pentagon, obviously very fitting 
because the building was directly involved, but the Pentagon 
does have some other room where a memorial could be placed.
    I am not trying to avoid putting it on--or I would try to 
avoid putting it, say, at Fort Myer, where you would not have 
access by the public, but there are memorials where you can be 
on a military reservation and not have the access problem, and 
you certainly can commemorate a national event that does not 
have to be on the Mall or in this case located in an Area II in 
the District of Columbia.
    So the simple answer was Arlington Cemetery is one possible 
solution. There probably are others.
    Senator Akaka. Thank you.
    Mr. DuBois.
    Mr. DuBois. Senator Akaka, we in the Department of Defense 
see great merit in a memorial such as described in S. 268. What 
concerns we have, what hesitation we have, if you will, is 
that--and certainly we will respect whatever Congress directs--
but should a memorial such as this be put on a military 
reservation, a military installation, which is restricted, 
which has restricted access, it thereby by definition impedes 
the access to the public.
    If the opportunity for maximum visibility, maximum access, 
is a metric that we ought to pursue, then we kind of think that 
it ought to be on a non-military reservation. Now, Dennis 
mentioned both the 9/11 Memorial at the Pentagon, with which I 
am very familiar--fortunately for us, the 9/11 Memorial will be 
at a corner near Route 27 and there will be a perimeter around 
it which prevents, which will prevent, the public from then 
entering the inner area, if you will, near the Pentagon 
building proper.
    Arlington Cemetery, in a way analogous to the wall, the 
Vietnam wall, is running out of room and the question one must 
ask is do we want to put another memorial there which might 
have been used for eligible soldiers, sailors, airmen, and 
marines to be buried? So again, we are not objecting to the 
memorial, but we would suggest that there might be a better 
place than one which is restricted to the public.
    Senator Akaka. Thank you for your responses.
    Mr. Smith, I know you touched on this, but let me hear an 
expansion on it if you can. Your testimony indicates the 
National Park Service now concludes--and this is on S. 1076, 
which is the Vietnam Veterans Memorial Education Center--``The 
Park Service now concludes that an underground visitors center 
near the Vietnam Veterans Memorial will not be feasible.''
    The Vietnam Veterans Memorial Fund seems convinced that an 
underground center is the best way to proceed. If this bill is 
enacted, how do you envision those two views being reconciled?
    Mr. Smith. Actually, we have--I believe in the testimony it 
speaks of in their advisory role the planning commissions 
having given their advice to the Congress and to the Park 
Service. The Director of the Park Service would still like to 
try to find a way that this could possibly occur and that is 
why we are saying in our testimony that we look forward to 
working with both the committees of Congress and the fund and 
these commissions to see if there is some way to look at all 
the alternatives.
    If it is to go on or adjacent, above or below-ground, those 
are the type of details that, they would certainly then go to 
size, smaller being probably more appropriate to accommodate 
than something as large as 10,000 square feet, location, which 
would have to be looked at very carefully, of where it would 
be, close to the Vietnam Veterans Memorial but not too close to 
the Lincoln Memorial. Those type of details would have to come 
out, as any type of structure on the Mall would, as it goes 
through that process where the experts really look at it and 
make them work.
    The size and scope of the World War II Memorial was 
reduced, but it did stay in that unbelievably prominent site. 
The Korean War Memorial certainly was looked at as to how it 
would be a landscape solution. So a lot of that is once you 
actually have a proposal from Congress which is signed into 
law, is then to let those commissions do their work and work on 
those specific details.
    Senator Akaka. Thank you for that response.
    My last question, Mr. Smith. Last Congress this committee 
adopted an amendment to the Commemorative Works Act which would 
prohibit the siting of new memorials on the National Mall. As I 
understand, this amendment was based on the recommendation of 
the National Capital Memorial Commission, which includes the 
Director of the National Park Service, and the National Capital 
Planning Commission. This is considering the future of the 
Mall.
    Does the Department of the Interior still support this 
amendment prohibiting new memorials and other commemorative 
works on the Mall?
    Mr. Smith. Mr. Chairman, it has not come before this 
current Secretary of the Interior, but you are correct that 
those commissions as part of their--I was looking quickly back 
through my testimony. The exact study they did, the Memorials 
and Museums Master Plan, the commissions did take that 
position, and again they take that in their advisory role, 
created by Congress to advise both the Department, the 
Secretary, and Congress.
    But since it has not been legislatively done, this 
Secretary has not gone on record as to her position on that. I 
did state in my follow-up to one of I believe the chairman's 
questions, administratively we basically are adhering to the 
reserve concept in the way the Park Service is approaching 
memorials on the Mall.
    Senator Akaka. Thank you, Mr. Chairman.
    Senator Thomas. Thank you.
    Senator Campbell.
    Senator Campbell. Thank you, Mr. Chairman. I have a couple 
of questions. I have been scribbling a bunch of notes here.
    Mr. DuBois, thank you for reading the inscription on that 
small plaque. I want to tell you, that was my bill a couple of 
years ago. I introduced that bill and we almost had to go to 
war again to get that darn thing passed, just for one little 
tiny plaque in addition to the Mall. Even though every veterans 
group in the United States supported that little bill, the 
administration opposed it.
    The Park Service--in fact, I can still remember Mr. 
Scruggs, who I believe perhaps was in your position now, Mr. 
Smith, from the Park Service came in and testified against that 
little, passing the bill to add that little plaque to the wall.
    I have to tell you, some of these so-called eligibility 
requirements leave a bad taste in my mouth, very frankly, after 
fighting as hard as we did to get that one little, one little 
recognition for some of the veterans who have died. I can still 
remember, when I went in the service there was not many 
eligibility requirements. We had to be 18 years old, have a 
clean criminal record, to be in good health, and the unspoken 
part was we had to be willing to go die somewhere.
    I know that we get caught up in all this bureaucratic stuff 
where we have all kinds of regs and rules and so on. When we 
get down to the real nitty-gritty of who gave what, it seems to 
me a lot of Americans paid the dues and paid the sacrifice to 
be able to be recognized for it.
    I wanted to get that off my chest in the beginning and ask 
you a couple of questions based on your testimony. Mr. Smith, 
you talked about design elements having been added to the wall. 
What were those design elements?
    Mr. Smith. The design elements, actually when the memorial 
was first conceived it was only the----
    Senator Campbell. They were not added after the wall was 
constructed?
    Mr. Smith. They were--well, I can go through a list here, 
Senator, if I could. The first thing that happened was as the 
memorial had cleared through the commissions, the addition of a 
flag and the servicemen's statue. Those were actually additions 
to the original design that had originally cleared through the 
commissions and legislation that Senator Mathias and Senator 
Warner passed. Before the memorial was built and dedicated, 
those were added.
    There was also the recognition of women who served in 
Vietnam has been added, very close to the wall but discretely 
away so that it does not directly--it is tied into the wall, 
but does not impact the wall.
    Now you do have an addition would be your legislation, 
Senator, that now that plaque will be placed in that circular 
area where that statue is of the three servicemen. So those are 
considered additions to the memorial.
    Senator Campbell. My staff tells me maybe I should not have 
been too tough on you because you did not oppose, apparently, 
my last bill, which authorized the POW-MIA flag to be flown at 
the Korean Memorial and the Vietnam Memorial and I guess the 
World War II Memorial, too.
    Mr. Smith. Senator, if I could clear the record so we will 
have it, the actual Park Service witness would have been John 
Parsons. Jan Scruggs of course is the president of the Vietnam 
Veterans Memorial Fund.
    There are those of us who sit in this chair and certainly 
take no problem with you having those views. I sit here as a 
veteran, the son of a veteran, my two brothers also having 
served in Vietnam. So believe me, this is a topic that I sit 
here as a witness who is very concerned and would like to find 
a solution for this, even though I do wear a bureaucratic hat 
and certainly have to defend the position the Park Service 
takes on issues on that Mall, of which all of these bills fall 
back into that category of what we are going to build there, 
which is many, many things that people wish to see there.
    Senator Campbell. Well, for the record then let me 
apologize to Mr. Scruggs if he was not in that position. I 
apologize for that.
    Let me ask you--let me stay with this one before I ask you 
something about the King one. I understand about 290 some odd 
names have been added to the wall since it was built; is that 
correct?
    Mr. Smith. I tried to do the math, Senator. I came to 296.
    Senator Campbell. Okay, 296.
    Mr. Smith. It could be a little different.
    Senator Campbell. That is why this bill was numbered that. 
But you mentioned that they are alphabetical. What did you do 
with those names, just add them to the----
    Mr. Smith. Not alphabetical. It is in chronological order. 
The unbelievable initial design of that memorial by Maya Lin--
--
    Senator Campbell. How did you add the 296?
    Mr. Smith. They actually--the way names were spaced as you 
came down on each panel is they could be added at the end of 
each panel as you came down. And they adhered to chronological 
order through the first 231, I believe, which were added as the 
memorial was being built. VVMF actually researched records and 
found those. I believe there have been between 209 and 230 that 
have been added since, and those actually have gone in as close 
to chronological order of where they became casualties on the 
wall and they have filled in where there was space available 
for names.
    Senator Campbell. Good, all right.
    Let me ask Mr. DuBois a question on S. 1076, I believe it 
is, the educational bill that is in. I have been around the 
Capitol a little bit and I notice that almost every building 
that has something to do with the military has a museum or 
artifacts or something in it. You go to the Navy Yard, they 
have a very nice museum. If you go to the Pentagon, there is a 
whole area there where they commemorate the different military 
branches. If you go to the Retired Officers Association, for 
instance, they have some memorabilia there. Almost everybody 
does.
    But I have never seen anything in this city that 
coordinates or uses any of that existing areas, museums, if I 
can use that word, in some kind of a fashion to encourage 
people to visit them. Do you know of anything that is done 
along that line?
    Mr. DuBois. It is interesting you ask that question. Before 
I came back to the Government, I was intensely involved in the 
one museum that this great Nation does not have, a National 
Army Museum, believe it or not. Now, with the involvement of 
various Senators here, it is going to be built at Fort Belvoir.
    But in my research in those years I came to the conclusion, 
as you have pointed out, there is something missing. I would 
call it a virtual visitors center, if you will, that would tie 
together all the not just great museums and destination spots, 
if you will, on the Mall in Area I, but museums that reflect 
the heritage of this country that go across the country, in a 
place where, to use the phrase, the grandson of Private Ryan in 
northern California could access what is on the wall in 
Washington and why, or a young man or a young woman in 
Pensacola, Florida, could find out what will be at the American 
Indian Museum here on the Mall.
    We believe that the military ought to do something like 
this, but of course there is a larger educational issue at hand 
and perhaps the Department of Interior and the Department of 
Defense might work together. I think that with the technology 
available to us--and in point of fact, what are museums? They 
are educational venues. If we can turn to the Internet, as so 
many children do today naturally, as opposed to when I grew up, 
and create a virtual mall, a virtual museum if you will, 
interconnecting all of these fabulous sites where artifacts and 
educational value resides, it might be a very valuable thing 
for the Congress to consider.
    Senator Campbell. Well, there may be a role for the Library 
of Congress to work in there, too.
    Thank you, Mr. Chairman. I appreciate the time.
    Senator Thomas. Gentlemen, thank you very much. We 
appreciate your contributions.
    Mr. DuBois. Thank you, Mr. Chairman.
    Senator Thomas. We look forward to working with you as we 
go forward.
    Let us call up our second panel then: Mr. Dave Enzerra, 
trustee of Pyramid of Remembrance Foundation; Mr. Harry 
Johnson, president of the Martin Luther King National Memorial 
Foundation; William Lecky, principal, I think architect; George 
Oberlander, board member and treasurer of the National 
Coalition to Save Our Mall; Lieutenant Colonel James Zumwalt, 
U.S.S. Frank E. Evans Association, Inc.
    Again, thank you all, gentlemen, for being here. Your total 
statements will be put in the record, so if you could summarize 
those. If you have the impulse to do that, please pursue it 
recklessly.
    Let us see. Let us start over here with Mr. Enzerra, 
please.

            STATEMENT OF DAVID J. ENZERRA, TRUSTEE, 
               PYRAMID OF REMEMBRANCE FOUNDATION

    Mr. Enzerra. Chairman Thomas and subcommittee members: I 
appreciate the opportunity to testify in support of S. 268, to 
establish a national memorial to honor members of our armed 
forces who have lost their lives during peacekeeping 
operations, humanitarian efforts, training accidents, terrorist 
attacks, and or covert operations.
    This memorial was conceived 10 years ago by students at 
Riverside High School in Painesville, Ohio. The images of an 
American soldier being dragged through the streets of Mogadishu 
evoked heartache and galvanized a purpose which endures to this 
day.
    World events underscore the significance of remembering 
America's heroes who have lost their lives in Somalia, Haiti, 
and Kosovo. The Pyramid of Remembrance also honors soldiers 
killed in terrorist attacks on the Pentagon, U.S.S. Cole, those 
who have died in Afghanistan, Iraq, during the bombings in 
Saudi Arabia and in Beirut, during the rescue attempt of 
American hostages in Iran, and during hostilities in Grenada, 
El Salvador, Panama, and the Persian Gulf.
    All too often we also learn of soldiers who perish in 
military accidents. This sadly was the case on March 11 when a 
Black Hawk helicopter crashed during a training mission at Fort 
Drum, New York, killing 11 servicemen. As one student remarked, 
just because soldiers are killed during training does not mean 
they should not be remembered with a memorial. Their sacrifices 
are the same as those who died in World War II, Korea, and 
Vietnam.
    The need for this memorial has been made clear in the 
aftermath of September 11 and the evolving role of our 
military. On January 30 four soldiers were killed aboard a 
Black Hawk helicopter that crashed in Afghanistan. All four 
were remembered as warriors, aviators, and family men who 
represented the best the Army had to offer. Sadly, there are 
other casualties. The White House has reported that 52 
servicemen and women were killed in just the first year of 
Operation Enduring Freedom.
    Last week's Memorial Day activities took on added meaning 
as we remembered 160 U.S. soldiers killed during Operation 
Iraqi Freedom. As America engages in the war on terror, let us 
now forget the sacrifices of these many brave men and women.
    In 2001, the National Capital Planning Commission said that 
the Pyramid of Remembrance would indeed fill a void in our 
Nation's military monuments and recommended it be constructed 
on Defense Department land. The memorial has also received 
endorsements from former Secretary of Defense Cohen, General 
Shelton, former Chairman of the Joint Chiefs of Staff, and 
former President Bush.
    Last September, H.R. 282, introduced by Congressman 
LaTourette, was approved by the Resources Committee to 
establish this memorial. A companion bill was introduced by 
Senators Voinovich and DeWine. The 107th Congress adjourned 
before either bill reached the floor. Similar legislation had 
been introduced in earlier sessions, including H.R. 1608, which 
actually passed the House during the 106th Congress, but failed 
to reach the Senate.
    Passing legislation during the 108th Congress is not only 
the right thing to do for our armed forces, veterans and 
families; it would also be an endorsement of the youth of our 
country. This grassroots effort, championed by high school 
students a decade ago, deserves our support now.
    Accordingly, our foundation achieved 501(c)(3) status in 
2002 through the donated services of legal counsel. We also 
developed a strategic plan. Our advisers and trustees include 
executives from national corporations and professionals in 
business, legal, finance, marketing, and education, all of whom 
are volunteering their expertise to this cause. This is 
compelling testimony to how a community can rally around civic-
minded students who are persevering to make a difference for 
their country.
    Mr. Chairman, I also want to emphasize that we are not 
seeking a site on the Mall for this memorial. We will 
collaborate with the Department of Defense and Interior to find 
a suitable location elsewhere within the District of Columbia, 
which could include Arlington National Cemetery, the Pentagon, 
or other suitable locations.
    The final design and costs will also depend upon input from 
the National Park Service, the National Capital Memorial 
Commission, and veterans. We also understand and support that 
no public funds can be used. We will incorporate best practices 
others have used to raise private funds for memorials, 
including endorsements from national leaders and tiered giving 
from corporations.
    In conclusion, please be assured our foundation is prepared 
to take full responsibility for managing this project once 
legislation is passed. We have both the passion and wherewithal 
to help turn the dreams of our students into a reality for 
America.
    Thank you for the opportunity to speak. We appreciate any 
advice you can provide, and I would be happy to address any 
questions regarding my testimony.
    [The prepared statement of Mr. Enzerra follows:]

           Prepared Statement of David J. Enzerra, Trustee, 
                   Pyramid of Remembrance Foundation

    Chairman Thomas and members of the Subcommittee: I appreciate the 
opportunity to testify in support of S. 268. The Pyramid of Remembrance 
Foundation seeks to establish a national memorial to honor members of 
the Armed Forces of the United States who have lost their lives during 
peacekeeping operations, humanitarian efforts, training accidents, 
terrorist attacks or covert operations. My intention today is to 
communicate both our resolve and capability for seeing this worthy 
endeavor through to a successful completion.
    The vision for this memorial was conceived in 1993 by students at 
Riverside High School in Painesville, Ohio during the Somalian 
conflict. The images that appeared on televisions and newspapers of an 
American soldier being dragged through the streets of Mogadishu evoked 
heartache and galvanized a purpose which endures to this day.
    Events of the ensuing decade underscore the significance of 
remembering America's heroes who have lost their lives serving our 
country in areas such as Somalia, Haiti, Bosnia and Kosovo. The Pyramid 
of Remembrance would honor servicemen and women killed in terrorist 
attacks on the Pentagon and the U.S.S. Cole and those who have fought 
and died heroically in Afghanistan and Iraq. It would pay tribute to 
our soldiers who perished during the bombings of the Khobar Towers in 
Saudi Arabia and the Marine barracks in Beirut; during the failed 
rescue attempt of American hostages in Iran; during hostilities in 
Grenada, El Salvador, Panama, the Persian Gulf and in training 
accidents that occur on land, in air and at sea so our Armed Forces can 
be ready to defend human rights and freedoms that Americans cherish.
    We read in our papers all too frequently of soldiers who have lost 
their lives in military accidents. This sadly was the case on March 11 
when a Black Hawk helicopter crashed during a training mission at Fort 
Drum, N.Y., killing 11 servicemen. As one student remarked, ``just 
because soldiers are killed during training doesn't mean they shouldn't 
be remembered with a memorial their sacrifices are the same as those 
who died in WWII, Korea and Vietnam.''
    What we want to remember with this monument is that our military 
personnel have chosen a career filled with inherent danger. They put 
their lives on the line every day and for that we owe them our 
sincerest gratitude and respect. Today there is no memorial in 
Washington, DC. to specifically honor these courageous men and women 
largely because their sacrifice occurred in a time other than a 
declared conflict.
    The timeliness and necessity of the Pyramid of Remembrance has been 
made clearer in the aftermath of September 11 and the evolving role of 
our Armed Forces. On January 30 of this year, four U.S. soldiers were 
killed aboard an Army MH-60 Black Hawk helicopter that crashed during a 
training mission near the Bagram Air Base in Afghanistan. They were 
members of the 160th Special Operations Aviation Regiment and gave 
their lives in support of Operation Enduring Freedom. At a memorial 
held at Fort Campbell, Kentucky, all four were remembered as 
``warriors, aviators and family men who represented the best the Army 
had to offer.''
    Sadly, these casualties are not the only ones. Others have died in 
America's war on terrorism, including all ten soldiers aboard the 
Chinook MH-47E helicopter that crashed on February 22, 2002 during 
counter terrorism exercises with Philippine troops.
    The White House reported that 52 American servicemen and women had 
been killed in the war on terror in just the first year of Operation 
Enduring Freedom. Last week's Memorial Day activities took on added 
meaning as our country reflected on the 160 U. S. soldiers killed to 
date during Operation Iraqi Freedom. As our Nation continues to engage 
in the war against terror, we must not forget the sacrifice that these 
men and women have made for their country.
    Students past and present have remained steadfast in their 
conviction for and pursuit of the Pyramid of Remembrance Memorial. 
Their efforts have received an ever-increasing amount of support from 
government and community leaders over these years.
    In April 2001, the National Capital Memorial Commission, charged 
with overseeing monument construction in Washington, DC., held hearings 
about the proposed Pyramid of Remembrance. The Commission recommended 
that the memorial be constructed on Defense Department land, possibly 
at Fort McNair. The Commission also noted that such a memorial would 
indeed fill a void in our Nation's military monuments. The memorial has 
also received endorsements and letters of support which we have on file 
from former Secretary of Defense William S. Cohen, General Henry 
Shelton, former Chairman of the Joint Chiefs of Staff and former 
President Bush.
    In September of 2002, H.R. 282 by U.S. Rep. Steven C. LaTourette 
was discharged by unanimous consent by the House Resources Committee to 
authorize the establishment of this memorial on Department of Defense 
property. A companion bill (S. 3128) was introduced by U.S. Senators 
Voinovich and DeWine in October. The 107th Congress adjourned before 
either bill could reach the floor. Similar legislation was introduced 
during previous sessions of Congress. This includes H.R. 1608 which was 
passed in the House in November, 2000 with 80 co-sponsors but failed to 
reach the Senate prior to adjournment.
    In January 2003, legislation was reintroduced as H.R. 422 and S. 
268. The House bill is currently before the Resources Committee. 
Passing this legislation during the 108th Congress is not only the 
right thing to do for our nation's armed forces and families; it would 
also be a message of affirmation to the youth of our country. This 
grassroots effort championed by high school students deserves our 
support. They have worked diligently for ten years; there is no better 
way to uphold their dedication and perseverance than by helping them 
achieve their vision.
    The Pyramid of Remembrance Foundation is a coalition of students, 
educators, business people and community leaders working together to 
turn this idea into a reality. In 2002 we achieved 501(c)(3) tax exempt 
status through the donated services of legal counsel. Our EIN is 30-
0044856. A strategic plan was also created that includes input from 
senior managers from national corporations, veterans and other 
stakeholders. It contains our mission, values, objectives and action 
plans. Partnerships among businesses, civic groups, veterans, 
educators, government officials and community leaders at the local and 
national level will make this memorial a reality.
    We fully appreciate that an undertaking of this scope will require 
a well coordinated, nation-wide campaign. We have researched the 
efforts and chronology of other groups who have pursued national 
monuments. These include the WWII Memorial on the Mall, the Martin 
Luther King Jr. Memorial on the Tidal Basin and the Air Force Memorial 
at the Navy Annex site overlooking the Pentagon. We are factoring their 
experiences into our plans. Our organizational capabilities, board 
governance and fund-raising strategies are being developed in 
anticipation of legislation being passed by the 108th Congress. When 
President Bush signs this bill into law, support will escalate rapidly 
across the country. We have positioned ourselves to ``hit the ground 
running'' when this occurs.
    Our Board of Advisors and Trustees include professionals in 
business administration, legal, finance, architecture, marketing and 
public education. Some serve on the boards of other foundations and 
non-profit organizations. Our goal is to broaden our leadership base as 
the project moves forward. Even at this early stage - without a bill 
being passed, executives from two national corporations with global 
operations are serving on our Board of Trustees. The Lubrizol 
Corporation and the Steris Corporation are both listed on the New York 
Stock Exchange. Their headquarters are in Lake County, Ohio close to 
where Riverside High School is located. We have letters of support from 
the Chief Executive Officers of both of these organizations. They 
advocate the type of corporate involvement in community projects we 
need to be successful.
    Support for this memorial continues to expand well beyond the 
classroom walls where it began. It now includes other school districts, 
social, civic and community based leadership organizations. They have 
helped us take important first steps in this journey across America. It 
is now becoming a national undertaking. This is compelling testimony to 
the power of perseverance and collaboration--how a community can help a 
small group of civic-minded students make a lasting difference for an 
admirable cause.
    As word of this project spreads, additional support, expertise and 
infrastructure will be secured to raise the funds to construct this 
memorial. We are eager to work with the appropriate committees as the 
legislative process moves forward. Once the bill becomes law, final 
site selection, design and fund-raising activities can proceed 
accordingly.
    Regarding site selection and design--we will work responsively with 
all appropriate Federal agencies. Mr. Chairman, it is important to note 
that we are not seeking a site on the Mall for this memorial. We intend 
to collaborate fully with the Department of Defense and other entities 
to find a suitable location elsewhere within the District of Columbia 
and its environs.
    The initial, conceptual design by students includes a thirty to 
forty foot tall, red granite, four sided pyramid with water sheeting 
down all four sides. The continuous flow of water symbolizes the 
monument as a living memorial and on-going tribute to our military 
heroes. It will be raised on a black granite platform. The insignias of 
the five military branches and the words ``Faith, Honor, Virtue and 
Remembrance'' will be inscribed on the Pyramid's sides. The final 
design and definitive cost will, of course depend upon input from 
appropriate Federal agencies such as the National Park Service, the 
National Capital Memorial Commission, the Department of Defense, 
veterans groups and constituencies. We intend to comply fully with the 
Commemorative Works Act and other Federal legislation as appropriate.
    Regarding financing--we understand, accept and support that no 
public funds can be used for the Pyramid of Remembrance. We will 
incorporate best practices others have used to raise private funds to 
build memorials of this nature. We will obtain endorsements from 
nationally known and respected individuals and organizations. These 
include military personnel, veterans groups and celebrities. We will 
utilize professional fund-raising expertise and proven strategies such 
as tiered giving from national corporations, foundations, individuals 
and stakeholders. Students across America will be involved because of 
the unique educational aspects of this endeavor.
    In conclusion, please be assured the Pyramid of Remembrance 
Foundation is prepared to take full responsibility for managing this 
project and raising the required funds once legislation is passed. We 
appreciate any advice and assistance you can provide. You can also be 
confident supporting S. 268 knowing that our Foundation has both the 
passion and the wherewithal to turn the dream of our students into a 
reality for America.
    Thank you once again for the opportunity to speak today, and I 
would be happy to address any questions you might have regarding my 
testimony.

    Senator Thomas. Thank you very much, sir. We appreciate it.
    Mr. Lecky.

           STATEMENT OF WILLIAM P. LECKY, PRINCIPAL, 
                         Ai ARCHITECTS

    Mr. Lecky. I am a principal in a firm called Ai in town. I 
have been practicing architecture for 43 years in the 
Washington area and I am the designer for the proposed visitors 
center. My background, along with my partner I was the 
architect of record on the Vietnam Memorial 20-some years ago, 
working with Maya Lin and Jan Scruggs. I was the architect of 
the Korean Memorial on the other side of the Reflecting Pool. 
As a sidebar comment, I am also a Korean veteran. I have worked 
on the White House, Blair House, pretty much every museum along 
the Mall, and if I have learned anything in 23 years of working 
on the Mall, it is something that as a designer I take very, 
very seriously, as would any competent designer, I would 
certainly hope.
    I would like to focus on four areas of concern that I have 
heard from people. The first is setting a precedent: If we are 
allowed to do this at Vietnam, then everybody is going to want 
to build a visitors center. I would point out that there is 
already a bookstore at the Lincoln, there is a visitors center 
at the Navy Memorial, there are restrooms and a gift shop at 
the Roosevelt Memorial, a visitors center at the White House, a 
proposed visitors center at the Washington Monument.
    I am not certain that we are really setting a precedent, 
and the truth of the matter is I am not sure it would be 
terrible at other memorials as long as the information center, 
visitors center, education center, whatever we want to call it, 
is well designed and does not interfere with the memorial, that 
this would necessarily be a terrible thing.
    I would like to add a few comments about this issue. The 
east end of the Mall is a very, very user-friendly place. Love 
to go there--lots of museums, restaurants, restrooms, air 
conditioning when needed, a place to sit down. It is just a 
great place to be. The west end of the memorial--of the Mall, 
showcases three of the favorite memorials in the city and yet I 
submit it is a very user-unfriendly place to go. There are no 
Metro stops as there are on the east part of the Mall. There 
are no restaurants. Yes, you can get a stand-up hot dog. There 
are a couple of restrooms if you know where to find them.
    There are very few amenities currently being provided at 
that end of the Mall. The new center will offer some of this--
some restrooms, some seating, some air conditioning--and, most 
important of all, the issue of education, helping our youths to 
understand the memorial and Vietnam in general. I just do not 
understand how this can be viewed as a negative, having a 
negative impact on the Mall.
    No. 2, disturbing vistas on the Mall. The Reflecting Pool 
is one of the most sensational vistas, I believe, in the world, 
with Washington at one end on Lincoln at the other. The view 
coming across the Memorial Bridge, with the Lincoln right on 
dead center, is another absolutely spectacular, breathtaking 
vista. There are secondary vistas that we designed into both 
Vietnam and Korea which give views of Lincoln and Washington.
    All of these things should not be disturbed. Both Vietnam 
and Korea, coincidentally, were very specifically placed and 
articulated to not disturb any of the vistas that currently 
existed.
    If you look at exhibit 1, which I guess is over here, you 
will see a whole series of little yellow squares and dots, or 
in your handout maybe it is more visible. These are all 
miscellaneous structures, some well-designed, some poorly 
designed--restrooms, kiosks, maintenance facilities, and so on. 
We see the visitors center as simply being one of those 
auxiliary structures tucked in the woods, not disturbing any 
vistas in any way, shape, or form. In fact, the trees that 
exist will block more vistas than our visitors center.
    The third item is proximity to the wall, will it impact the 
experience of going to Vietnam. I spent three long years trying 
to perfect the wall, not without help from Maya Lin and my 
partner and others. We worked on some of the elements we talked 
about earlier in this meeting, moving the sculpture and the 
flagpole from their originally proposed locations, all of which 
were done to keep Maya Lin's design in its most pure form. I am 
not about to sacrifice that dedication at this point in my 
career.
    This new center will be hidden in the woods. People may not 
even realize that it is there unless they see a line or are 
told to go there. It is in the same location as the small Park 
Service kiosk that is there now.
    The last issue is esthetics and all I can say about that, 
that the above-ground as well as below-ground, truth be told, 
have not been finalized in terms of their design, but this is 
not a place, I certainly feel, for an architectural statement. 
This should be a very negative, non-building that is very 
transparent, a lot of glass, elegantly detailed, and the hope 
is when you come away from this you will not remember what the 
building looked like because it will be such a passive entity 
on the Mall.
    In summary, the only impact this project will have on the 
Mall in my view is the educational and emotional impact that it 
will have on thousands of students and visitors who will go 
away with a deeper understanding of our Nation's history and 
our Nation's values.
    As a slight aside, I would encourage you to put title 2 
into a separate legislation so that it does not impact what we 
are trying to do with the visitors center. I have pointed out 
that the two exhibits, one showing the location of things, one 
showing some views of the inside of the proposed center--and at 
this point I thank you for the privilege of being here and 
appreciate the opportunity and would be happy to answer any 
questions.
    [The prepared statement of Mr. Lecky follows:]

    Prepared Statement of William P. Lecky, Principal, Ai Architects

    As a brief introduction, my name is William Lecky. I am a Principal 
in the firm of Ai. I have practiced architecture in and around 
Washington, DC for 43 years. I was the Architect of Record for the 
Vietnam Veterans Memorial, working along with Maya Lin in our office 
for the first few months and then continuing for the next two years to 
get the memorial built. I was also the Architect for the Korean War 
Memorial which sits in a mirror image location on the other side of the 
Reflecting Pool from Vietnam. I have lived in the DC area for over 
fifty years, won a number of design awards, and have worked on just 
about every building along the Mall at some point in my career. 
Designing anything on the Mall--from sidewalks to benches to memorials 
is something I take very seriously.
    I am here today, as the designer and an advocate, for the proposed 
Visitor Center at the Vietnam Veterans Memorial. There seem to be four 
areas of concern having to do with this project. A.) Setting a 
precedent for other memorials, B.) Locating a new object on the Mall 
that may impact its various vistas, C.) Its proximity to ``The Wall'', 
and D.) The aesthetics of the structure. I would like to briefly 
address each of those concerns.

                          SETTING A PRECEDENT

    Some people have said, ``If we let them do this at the Vietnam 
Memorial, all the memorials will want to do it.'' In response to this, 
I would first point out that there is already a book store at the 
Lincoln Memorial, there are restrooms and a gift shop at the Roosevelt 
Memorial, there is a Visitor Center at the White House, there is a 
Visitor Center currently planned for the Washington Monument. As far as 
I am aware, these have all been endorsed by the National Park Service 
and the public at large.
    The East end of the Mall is currently filled with museums, gift 
shops, restaurants, rest rooms and Metro stops--a very user-friendly 
environment. In contrast, the West end of the Mall showcases three of 
our nation's favorite memorials, yet it is a terribly user-unfriendly 
place to go with no parking to speak of, no Metro stops nearby, no 
place to get something to eat (with the exception of a hot dog), very 
few places to sit down, and there are a few restrooms, but you 
certainly have to go looking for them. The new Center at Vietnam will 
offer restrooms, and a place to sit down. More importantly, it will 
offer a profound educational experience with displays of photographs of 
those individuals whose names appear on The Wall, as well as helping 
youngsters better understand the history and significance of 
Washington's most visited memorial. I can't imagine anyone thinking 
that would not be a very positive thing for our visitors to the city.
    On the issue of limiting future memorials on the National Mall, 
this is a serious issue and good public policy. Yet, this issue must be 
advanced separately from this legislation or we again risk delaying the 
Visitor Center.

                        A NEW OBJECT ON THE MALL

    The primary vista on the West end of the Mall is down the 
Reflecting Pool--seeing the Lincoln at one end; the Washington Monument 
at the other. It is both historic and spectacular. Another powerful 
vista is crossing the Memorial Bridge with the Lincoln Memorial at the 
focal point of your view. Two other meaningful views are from the 
Vietnam Memorial, where one portion of the wall points to the 
Washington Monument; the other to the Lincoln. The other is the view of 
the Lincoln from the Korean Memorial. These are hugely important vistas 
that should not be disturbed ever. But there are a number of 
miscellaneous structures, some large, some small, some well designed, 
some not, that are tucked into the woods along the edges of the Mall. I 
submit that after considerable study, the Visitor Center now proposed 
has been placed specifically to not conflict in any way with one's 
views around the Mall. You can see this clearly in Exhibit One.

                         PROXIMITY TO THE WALL

    I spent three years of my life working to perfect The Wall. I spent 
many meetings with the Commission of Fine Arts and NCPC trying to 
locate the Three Soldier Statue and the Flagpole in a way that would 
allow the purity of Maya's design to remain undisturbed. I would not do 
otherwise with this Visitor Center. It will be tucked between trees, 
off to the side, causing no interruption to either pedestrian traffic 
or the views between memorials. In truth visitors to The Wall could 
easily miss it, if they weren't looking for it.

                      THE AESTHETICS OF THE CENTER

    My hope, as the designer, is to essentially create a piece of non-
architecture . a structure that will disappear into the landscape. This 
is a place for design excellence, a structure of refined and elegant 
details, but one that leaves the overall impression of transparency. 
This is not a place for an ``architectural statement'' that cries for 
attention.
    In summary, the only impact this facility will have on the Mall is 
the educational and emotional impact it will have on the thousands of 
visitors and students who will go away from this place with a deeper 
understanding of our nation's history, our nation's values.
    I appreciate this opportunity. I'll be happy to answer any 
questions.

    Senator Thomas. Thank you very much.
    Colonel Zumwalt.

    STATEMENT OF LT. COL. JAMES ZUMWALT, U.S. MARINE CORPS, 
        RETIRED, U.S.S. FRANK E. EVANS ASSOCIATION, INC.

    Colonel Zumwalt. Thank you, sir.
    On March 29, 1969, the U.S.S. Frank E. Evans departed its 
home port of Long Beach, California, with a crew of 272 on 
board, setting sail for the western Pacific and combat duty in 
Vietnam. Neither the Evans nor more than a quarter of her crew 
would return. The circumstances giving rise to the tragic loss 
of this ship on June 3, 1969, continue to haunt the families of 
the 74 sailors who lost their lives early that morning. This 
haunting continues because we as a Nation have failed to 
adequately address an issue which could once and for all 
provide them with closure.
    We are here to discuss S. 296. Although of interest to the 
families of the Evans 74, there are many other families 
similarly affected who lost loved ones in the Vietnam War under 
circumstances creating an eligibility cloud of entitlement so 
that their names are not included on the Vietnam Veterans 
Memorial wall. This unfortunately is due to a failure by the 
Department of Defense to uniformly apply those eligibility 
standards.
    Let me share why I am here. In late June 1969, as a 
midshipman I reported on board a destroyer also serving off the 
coast of Vietnam which, like Evans, provided gunfire support 
for United States and allied forces ashore. Evans had just been 
lost. When my ship later arrived in Subic Bay, I saw the 
decommissioned stern section of Evans, a once-proud destroyer 
now reduced to a sad rusting hulk.
    I did not know a single member of the Evans' crew, but 
learned early on my career of the bond among those who served 
in uniform. A fellow serviceman's pain becomes your pain, his 
loss becomes your loss. Senator Campbell, based on your own 
Korean War service, I know you share that bond with veterans 
and I thank you for that, sir.
    As I observed the remains of Evans, a lump gathered in my 
throat. Coming to attention, I snapped a salute to the 74 souls 
lost on board her. That emotional moment in my life occurred 
almost 34 years ago, yet I remember it as if it were yesterday. 
Accordingly, I was honored when the USS Frank E. Evans 
Association invited me to participate in a salute of a 
different nature to these 74 victims by appearing before your 
committee to testify in support of S. 296.
    The circumstances surrounding the loss of the Evans are 
straightforward. Senator Campbell mentioned most of those 
during his opening remarks. Let it be said that the Evans was 
operating in the combat zone, left the combat zone to be 
replenished, participate in a planning conference, then 
participate in Operation Sea Spirit just outside the combat 
zone, when she was severed by the Australian aircraft carrier 
Melbourne.
    The only things of importance to us today in reference to 
the report that was done by the joint investigation of U.S. 
Navy and Australian forces was the fact that the location of 
the loss of the Evans was outside the combat zone, plus the 
duty she was participating in just prior to that loss. These 
are the types of things that need to be addressed specifically 
by DOD, as is required by the legislation we are talking about 
today.
    In the wake of Evans' loss and the commissioning of the 
Vietnam Veterans Memorial, repeated efforts by both Evans 
survivors and victims' families to have the names of their 74 
shipmates and loved ones placed on the wall were unsuccessful. 
DOD cites the reason as the Evans victims' failure to meet 
eligibility standards for inclusion which require death occur 
within the combat zone from enemy fire. However, these 
eligibility standards have been given a broad interpretation 
over the years to in fact include others now whose names are on 
the wall, yet fail to meet the same criteria applied to the 
Evans 74.
    To avoid casting a shadow upon the entitlement of these 
other deserving heroes, I will only use generic categories to 
show the lack of uniformity exercised in applying the 
eligibility standards. For example, the first addition of names 
to be made to the memorial after its 1982 dedication were, 
quote, ``68 names of servicemen, all of whom were killed in an 
airplane crash en route from the combat zone to Tokyo for R and 
R,'' end quote.
    While death apparently came outside the combat zone and not 
the result of enemy action, this R and R group received 
entitlement. Yet the Evans 74, similarly lost outside the 
combat zone but, as evidence supports, in the process of 
returning there, were denied eligibility.
    Also included on the memorial are the names of air crew 
members who did die in the combat zone, but in crashes due to 
mechanical problems and not enemy fire. At the time of the 
initial dedication of the Vietnam Veterans Memorial, 57,939 
names appeared on the wall. Over the past 21 years 296 names 
have been added, the last group just this past Memorial Day. 
But in the eyes and hearts of the families of the Evans 74, the 
eligibility standards have not been uniformly applied to them 
or others, resulting in almost daily inquiries from family 
members whose loved ones were left off the wall.
    The evolution of determining victim eligibility for name 
inclusion on the wall by DOD is not unlike that, what State 
courts face in determining eligibility issues related to 
workman's compensation, with a major exception: State courts 
have been uniform in applying eligibility standards; DOD has 
not. As State courts have expanded what fell into the scope of 
employment, even acts occurring far from the workplace were 
included when the employer knew or should have known an 
employee might engage in a certain activity.
    Because DOD's applicability of eligibility standards for 
name inclusion on the wall has lacked the consistency our 
courts have followed vis-a-vis employment issues, the 
perception arises that DOD's process is arbitrary. Absent the 
congressional mandate of S. 296, it is unlikely DOD will do 
anything about it, continuing to leave affected families 
frustrated in their efforts to honor loved ones.
    Every aspect of the eligibility issue is in need of address 
by DOD in its final report, including the issue of friendly 
fire. DOD has set a precedent in awarding the Purple Heart, 
normally reserved for those killed or wounded by enemy fire, to 
those killed or wounded by friendly fire as well. If DOD 
recognizes entitlement to this medal for one killed or wounded 
by friendly fire, should it recognize entitlement for name 
inclusion on the wall where death has been caused by friendly 
fire?
    Another issue then becomes what constitutes friendly fire. 
Could the sinking of Evans and casualties caused by its 
collision with Melbourne qualify as the equivalent of friendly 
fire?
    Also in need of address is the issue concerning the actual 
geographic area constituting the combat zone. A 1965 executive 
order signed by President Johnson designated Vietnam and its 
adjacent coastal waters within specified geographical 
coordinates as a combat zone. As hostilities spread elsewhere, 
there were spill-over areas, some of which were later included 
in the designated combat zone, some of which were not.
    The loss of Evans on June 3, 1969, devastated many 
families. A father, Lawrence J. Reilly, Senior, survived the 
collision, only to discover his son, Lawrence Junior, did not. 
Also, in a chilling reminder of the five Sullivan brothers lost 
during World War II, one family lost three brothers, Greg, 
Gary, and Kelly Joe Sage, when Evans went down. Their now-
elderly mother continues to attend the annual reunions of the 
Evans Association, still wondering why her three sons are not 
recognized on the wall.
    In a letter of condolence to the mother of another victim, 
Yeoman Third Class Andrew J. Botto, President Nixon promised, 
quote: ``I can only assure you that the Nation he died to serve 
shares your grief and will forever honor his memory.'' Mrs. 
Botto, now 83, still waits for a grateful Nation to do so.
    I would point out S. 296 is not a budget-related item. It 
requires no decision now on changing existing policies. It 
gives sufficient time for an updated review of those policies 
in light of current conditions and a greater appreciation for 
the sacrifices of veterans of the Vietnam era, as stated in the 
bill.
    Opposition to S. 296 at this point, absent the initial 
review and report it requires, is premature, for we must go 
through the process of qualifying and identifying possible 
names for inclusion on the wall or on an alternate memorial to 
fully understand the impact of this bill, rather than simply 
assuming the worst. And to cite cost at the outset as a reason 
for not supporting S. 296 is a disservice to the families whose 
loved ones might qualify for such a memorial. Enactment will 
show victims' families Congress has not forgotten them.
    This is clearly a bill all members of Congress can and 
should support.
    I thank you, sir.
    [The prepared statement of Colonel Zumwalt follows:]

  Prepared Statement of Lt. Col. James Zumwalt, United States Marine 
          Corps, Retired, USS Frank E. Evans Association, Inc.

    On March 29, 1969, the USS FRANK E. EVANS (DD-754) departed its 
home port of Long Beach, California, with a crew of 272 onboard, 
setting sail for the western Pacific and duty in Vietnam. Neither the 
EVANS nor more than a quarter of her crew would ever return. The 
circumstances giving rise to the tragic loss of this ship on June 3, 
1969, continues to haunt the families of the seventy-four (74) sailors 
who lost their lives early that morning. This haunting continues 
because we, as a nation, have failed to adequately address an issue 
which could, once and for all, provide them with closure.
    I appear before this Committee today as an interested veteran and 
at the specific request of the USS FRANK E. EVANS Association, Inc. But 
I must report the subject we discuss this afternoon, Senate Bill 296, 
``The Fairness to All Fallen Vietnam War Service Members Act of 2003,'' 
goes beyond just the families of the FRANK E. EVANS' victims. Sadly, 
there are many other families who, similarly, lost loved ones in the 
Vietnam war under circumstances creating a ``cloud of entitlement'' as 
to eligibility for their names to be included among those that appear 
on the Vietnam Veterans Memorial ``Wall.'' Accordingly, I respectfully 
request the Committee keep in mind numerous cases are in dispute as to 
a victim's entitlement to be so listed due to a failure by the 
Department of Defense (DOD) to uniformly apply eligibility standards 
for inclusion.
    Let me further explain why I am here.
    In late June 1969, I reported onboard the USS PERKINS (DD-877), a 
ship of very similar construction to the destroyer FRANK E. EVANS. When 
I joined my ship, she was off the coast of Vietnam, performing a very 
similar mission to that which the EVANS had been, i.e., providing 
gunfire support for U.S. and allied forces ashore. As a midshipman on 
PERKINS, I gained firsthand experience and appreciation for the 
dangers, risks and demands of serving at sea in a combat zone. That 
experience and appreciation was firmly embellished upon my mind as, by 
the time I reported onboard PERKINS, the EVANS had been lost. On 
occasion, my ship found itself performing the same mission EVANS was 
performing that ill-fated night of June 3-taking up position as rescue 
ship aft of an aircraft carrier preparing to launch and recover its 
planes. Several weeks later PERKINS arrived in Subic Bay in the 
Philippines where I was surprised to see the decommissioned stern 
section of FRANK E. EVANS. What I saw was a once proud destroyer, which 
had earned the nickname ``The Fighter'' for its Vietnam service on the 
gunline, now reduced to a sad, rusting hulk. Although I did not know a 
single member of EVANS' crew, I learned very early in my career of the 
bond that forms among those who serve in uniform. A fellow serviceman's 
pain becomes your pain; his loss becomes your loss.
    I suspect, Senator Campbell, based on your own service in the 
Korean war, that is why you as a legislator have concerned yourself so 
much over the years with veterans issues-for which I thank you. But as 
I observed the remains of the EVANS, a lump gathered in my throat. 
Coming to attention, I snapped a salute to the 74 souls lost onboard 
her. Although that emotional moment in my life occurred almost 34 years 
ago, I remember it as if it were yesterday. Accordingly, I was honored 
when the USS FRANK E. EVANS Association asked me to participate in a 
salute of a different nature to these 74 victims, this time by 
appearing before your Committee to testify as to the importance of S. 
296.
    The circumstances surrounding the loss of the EVANS are 
straightforward. Reporting for duty at Yankee Station off the coast of 
Vietnam on May 5th, the ship immediately demonstrated she was a 
valuable asset in the war effort. The crew received several 
commendatory messages for their professionalism, responsiveness and 
accuracy in destroying enemy targets in support of our fighting forces 
ashore. They participated as well in what was one of the largest 
amphibious assaults of that war. EVANS departed the combat zone, along 
with her two sister ships, for a brief logistics stop in Subic Bay 
before participating in Operation Sea Spirit in the South China Sea. 
Sea Spirit involved vessels from navies representing five of our six 
allies in Vietnam. EVANS, along with the two sister ships in her 
squadron, became the US Navy contingent of a five destroyer screen 
operating with the Australian aircraft carrier HMAS MELBOURNE. At 0310 
on June 3rd, as the ships were still observing darkened ship wartime 
conditions operating on a specified zig-zag plan, EVANS was ordered to 
take up the preliminary position for duty rescue ship 1000 yards aft of 
MELBOURNE prior to the Aussie conducting flight operations.
    In the process of executing this maneuver, a collision occurred 
between the two ships at 0315-with MELBOURNE slicing EVANS in half. The 
forward section of EVANS, where all 74 casualties were suffered, sank 
within nine minutes, while the aft section was salvaged and taken to 
Subic Bay. Although a full investigation into the incident was 
conducted by both U.S. and Australian authorities, the only findings in 
their final report which are of relevance to us here today are the 
location of the collision and the activities of EVANS in the days prior 
to the tragedy. These are the factors too that need to be revisited by 
DOD, as suggested by S. 296, to determine whether the EVANS' 74 died 
``as a direct or indirect result of military operations in southeast 
Asia.''
    In the wake of EVANS' loss and the commissioning of the Vietnam 
Veterans Memorial, repeated efforts by both EVANS' survivors and 
victims' families to have the names of their 74 shipmates and loved 
ones placed upon The Wall have been unsuccessful. The reason given is 
the EVANS' victims do not meet DOD eligibility standards for such 
inclusion, which require that death occur within the combat zone and as 
a result of enemy fire. However, the eligibility standards cited as a 
basis for denial have been given a broad interpretation over the years 
to, in fact, include others now whose names are on The Wall but who 
fail to meet the same criteria applied to the EVANS' 74.
    I do not wish to put myself in the difficult position of naming to 
the Committee names, already on The Wall, of individuals who, under 
somewhat similar circumstances, were deemed eligible while the EVANS' 
74 were not. To do so would cast a shadow upon the entitlement of other 
deserving heroes. Therefore, I will only use generic categories to 
support the contention there is a lack of uniformity in applying 
eligibility standards.
    I submit by way of example, the first addition of names to be made 
to the Memorial after its 1982 dedication, described in the Vietnam 
Veterans Memorial Fund literature as ``68 names of servicemen, all of 
whom were killed in an airplane crash enroute from the combat zone to 
Tokyo for R&R.'' Entitlement was given to this R&R group, for deaths 
apparently outside the combat zone and not as a result of enemy action. 
Why then was entitlement denied to the EVANS' 74 who were similarly 
lost outside the combat zone--especially in light of evidence EVANS 
would have returned to the combat zone immediately after Operation Sea 
Spirit, as did her two sister ships? This clearly demonstrates a lack 
of uniformity in eligibility. Included on the Memorial too are names of 
aircrew members who died in the combat zone in crashes caused, not by 
enemy fire, but by mechanical problems.
    At the time of the initial dedication of the Vietnam Veterans 
Memorial, a total of 57,939 names appeared on The Wall. Over the past 
twenty-one years, an additional 296 names have been added-the last 
group just this past Memorial Day. But, in the eyes and hearts of the 
families of the EVANS' 74, the application of eligibility standards has 
not been uniform to all, resulting in a denial of eligibility not only 
to the EVANS' 74 but others too. The confusion surrounding eligibility 
is further evidenced by the fact The Vietnam Veterans of America, the 
only Vietnam veterans organization chartered by Congress, reports 
almost daily inquiries being made by family members whose names of 
loved ones were left off the Wall.
    The process for determining a victim's eligibility for name 
inclusion on The Wall is not unlike the evolution of workman's 
compensation law in many states having to determine if an act by an 
employee giving rise to an injury falls within the scope of employment. 
Initially, that scope was interpreted very narrowly by the courts. But 
in subsequent years, the range of factors weighed to determine if an 
act was ``in furtherance of'' the employment relationship has been 
broadened. Even an act occurring far away from the work location is 
deemed to be within the scope as long as an employer reasonably knew or 
should have known an employee might engage in it. Thus, the legal 
boundaries of the employment relationship in workman's compensation 
cases have been greatly expanded. A similar argument is applicable to 
the eligibility standards for name inclusion on The Wall. But, 
unfortunately, the decision-making process at DOD for regulating 
applicability of eligibility standards has lacked the consistency our 
courts have exhibited in dealing with workman's compensation cases. 
This has resulted in a perception that the eligibility-determining 
process for name inclusion on The Wall is arbitrarily applied. Absent 
responsible action by Congress in the form of S. 296, it is unlikely 
DOD will undertake any effort to implement a uniform eligibility 
process, continuing to leave affected families frustrated in their 
efforts to honor their loved ones. A need for DOD to undertake the 
study and report called for by S. 296 is further underscored by the 
cloud of entitlement for inclusion on The Wall raised by groups such as 
Air America, employees of the CIA which lost 242 pilots and crew 
members in Southeast Asia in the war conducting rescue operations deep 
behind enemy lines in North Vietnam and Laos.
    I would respectfully suggest to the Committee that every aspect of 
the eligibility issue be addressed by DOD in its final report. The 
issue of friendly fire, for example, needs to be included. For example, 
a DOD precedent has been set in awarding the Purple Heart, normally 
reserved for those killed or wounded by enemy fire, to those killed or 
wounded by friendly fire as well. If DOD recognizes entitlement to such 
a medal for one killed or wounded by friendly fire, should it recognize 
entitlement for name inclusion on The Wall where death has been caused 
by friendly fire? Another issue then becomes what constitutes 
``friendly fire?'' Could the sinking of EVANS and casualties caused by 
its collision with MELBOURNE qualify as the equivalent of friendly 
fire?
    In need of address too is the issue concerning the geographic area 
actually constituting the combat zone. Executive Order No. 11216, 
signed by President Johnson on April 24, 1965, designated Vietnam and 
its adjacent coastal waters, within specified geographical coordinates, 
as a combat zone. As hostilities spread to neighboring nations, so too 
did the designated combat zone, eventually including areas such as Laos 
and Cambodia. The combat zone off the coast of Vietnam varied in width 
as it roughly paralleled that country's coastline, with no apparent 
rationale as to why a variation in distances existed between the 
shoreline and the zone's furthest seaward boundary at any given point. 
While the official combat zone existed as a delineated ``box'' on the 
map, known enemy vessel activity took place outside that box, 
necessitating periodic air and sea patrols there as well. Did 
engagements outside this box, therefore, extend the combat zone beyond 
the parameters delineated on the map? Such issues need to be addressed.
    The loss of EVANS on June 3, 1969 devastated many families. A 
father, Lawrence J. Reilly Sr., survived the collision, only to 
discover his son, Lawrence Jr., did not. Also, in a chilling reminder 
of the five Sullivan brothers lost during World War II in the sinking 
of the USS JUNEAU, one family lost three brothers-Greg, Gary and Kelly 
Jo Sage-the morning EVANS went down. Their now elderly mother continues 
to attend annual reunions of the EVANS Association, still wondering why 
her three sons are not recognized on The Wall.
    President Nixon wrote the families of other victims, including the 
mother of Seaman Andrew J. Botto. In his letter, Mr. Nixon promised ``I 
can only assure you that the nation he died to serve shares your grief, 
and will forever honor his memory.'' Mrs. Botto, now 83, still waits 
for a grateful nation to do so.
    Mr. Chairman and distinguished members of this Committee, we 
respectfully ask of you the question we so often hear from the families 
of the EVANS' 74: ``Hasn't the time now come for this Nation to forever 
honor their memory?'' This can only be achieved by the passage of S. 
296 so that the eligibility issue can be revisited with a Congressional 
mandate to fairly and uniformly apply policies these families can 
understand and support.
    If the full intent of S. 296 is met, the end result should either 
be:

          (A) A determination of eligibility to include the names of 
        the EVANS' 74 on The Wall, as well as others who died in the 
        Vietnam war under a cloud of entitlement, or
          (B) In the event eligibility is still denied, a provision to 
        establish an alternative memorial, honorably recognizing their 
        sacrifice and listing the names of the EVANS' 74. This result 
        will not only remind a grateful nation never to forget them but 
        also fill a void in the lives of families and friends who have 
        fought so long and hard for their recognition.

    Now, Mr. Chairman, having expressed much dissatisfaction, let me 
hasten to commend the enormously dedicated work of Mr. Jan Scruggs and 
his highly motivated staff. We know their best intentions are to 
operate faithfully within directives given them but over which they 
have no authority to change. Simply said, without Mr. Scruggs' 
constant, untiring efforts, there would be no Wall today honoring the 
Vietnam veterans who perished in that war.
    Mr. Chairman and distinguished members of this Committee, on behalf 
of the USS FRANK E. EVANS Association, I want to thank you for allowing 
us to appear today to express our support for Senate Bill 296. It has 
no budgetary impact nor makes no change in current policies, but is an 
essential and necessary first step in fully re-examining the 
eligibility issue for name inclusion on this emotionally-inspiring 
memorial. It is a bill which ALL senators can and should support.
    We strongly urge the prompt passage of S. 296. Thank you.

    Senator Thomas. Thank you very much.
    I am going to hop over to Mr. Johnson because you will be 
commenting on several bills.
    Mr. Johnson, please.

 STATEMENT OF HARRY E. JOHNSON, SR., PRESIDENT, MARTIN LUTHER 
     KING, JR., NATIONAL MEMORIAL PROJECT FOUNDATION, INC.

    Mr. Johnson. Thank you. Thank you, Mr. Chairman and members 
of the subcommittee. Good afternoon. On behalf of the 
foundation, I would like to thank the chairman and the members 
of the subcommittee for the opportunity to testify to you today 
regarding S. 470, to extend the authority for the construction 
of a memorial to Dr. Martin Luther King, Jr.
    The building of such a memorial to a great American as Dr. 
King is a major undertaking of national importance. Our mission 
has always been clear and our resolve unyielding. Due in part 
to support of many across this great Nation, I am pleased at 
the progress we have made. I have with me today, Senator, our 
Executive Director, Mr. Leroy Lowry; Richard Marshall, our CFO; 
and Ed Jackson, our executive architect, with me joining me 
today.
    The review and approval process for the memorial involves 
hearings, public debates, and, if requested by the select 
commissions, additional studies. The MLK Memorial Foundation 
has achieved many milestones on the path to building a 
memorial, including what you heard earlier from Senators 
Sarbanes and Warner and others, that is the signing of the 
bill, the site selection, and the selection of the winning 
design.
    Mr. Chairman, in March 2001 the foundation launched the 
quiet phase of the fund-raising campaign. General Motors was 
one of our first major corporate sponsors. April 18, 2002, the 
Commission on Fine Arts voted in favor of the proposed design 
for the MLK Memorial. July 2002, Actor Morgan Freeman donated 
his time to create a series of public service announcements to 
raise the awareness of the Martin Luther King Memorial. In 
addition, Freeman voluntarily spoke to the media about the 
memorial, including participating in our online discussion on 
washingtonpost.com.
    In November 2002, under the auspices of the National Park 
Service, the foundation initiated the environmental assessment 
of the proposed site. A public scoping session was held January 
2003 and the public response was overwhelmingly positive.
    The geotechnical investigations are currently under way. 
Early reports indicate that the structural foundation of the 
memorial will have to extend 50 to 80 feet below the surface of 
the memorial. The Martin Luther King Memorial Foundation has 
also successfully partnered with individuals and organizations 
to raise the awareness of the memorial. An example of this is 
last month, May 2003, Senate Majority Leader Bill Frist hosted 
the launch of a national media campaign which was developed by 
the Ad Council in collaboration with the advertising firm of 
Saatchi and Saatchi. Mr. Chairman, the PSA's feature such 
individuals as Halle Berry and Al Roker.
    The foundation has raised to date $25 million in pledges 
out of an estimated $100 million needed to build the memorial. 
General Motors, Tommy Hilfiger and BellSouth continue to 
support the memorial project. Over the next two years, the 
foundation will continue to raise the necessary funds to build 
the memorial.
    Senators and members of this committee, when asked who 
should pay for the memorial to Dr. Martin Luther King, 
overwhelmingly everyone should say: Anybody who ever benefited 
from anything Dr. King said or did. That includes all of us in 
this room.
    It is vitally important that we receive the authorization 
to extend time to build as we proceed on. We have provided for 
you in our informational packets a description of the concept 
of the winning submission, its salient features, the site plan, 
a report of contributions to date, and the project schedule. If 
this extension is approved, we feel certain that this will give 
us the time necessary to fund the memorial and build the 
memorial to Dr. King.
    Mr. Chairman and members of the subcommittee, we sincerely 
appreciate having the opportunity to appear before you to 
support this legislation. Together we can make this dream of 
building a memorial to Dr. King a reality. I thank you and I 
would be glad to answer any questions, Mr. Chairman.
    [The prepared statement of Mr. Johnson follows:]

         Prepared Statement of Harry Johnson, Sr., President, 
   Martin Luther King, Jr. National Memorial Project Foundation, Inc.

    Mr. Chairman and Members of the Subcommittee on National Parks, my 
name is Harry E. Johnson, Sr., and I am the President of the 
Washington, DC Martin Luther King, Jr. National Memorial Project 
Foundation, Inc. On behalf of the Foundation I would like to thank the 
Chairman and the Members of the Subcommittee for the opportunity to 
testify regarding Senate Bill 470, to extend the authority for the 
construction of a memorial to Dr. Martin Luther King, Jr. on the 
National Mall.
    The building of a memorial to such a great American as Dr. King is 
a major undertaking of national importance. Our mission has always been 
clear and our resolve unyielding, due in part to the support of many 
across this great nation. I am pleased about the progress we have made 
to date.
    The review and approval process for the Memorial involves hearings, 
public debates and if requested by select commissions, additional 
studies. The MLK Memorial Foundation has achieved many milestones on 
the path to building the Memorial, including the following:

  <bullet> On November 12, 1996 President Clinton signed congressional 
        legislation proposing the establishment of a Memorial in the 
        District of Columbia to honor Dr. King.
  <bullet> On July 16, 1998 the authorization to construct a memorial 
        in Area I of the National Mall was granted by Congress and 
        signed by President Clinton.
  <bullet> On December 2, 1999 The National Capital Planning Commission 
        (NCPC) approved the memorial site on the National Mall.
  <bullet> In May 2000 over 900 entries from 52 different countries 
        around the world were received in response to the call for 
        entries for the Dr. Martin Luther King, Jr. International 
        Design Competition in Washington, DC.
  <bullet> On September 13, 2000 the MLK Memorial Foundation announced 
        that ROMA Design Group, Inc. based in San Francisco, won the 
        international design competition.
  <bullet> In March 2001 the Foundation launched the quiet phase of the 
        fundraising campaign. General Motors was the first major 
        corporate sponsor.
  <bullet> On April 18, 2002 the Commission of Fine Arts voted in favor 
        of the proposed design for the MLK Memorial.
  <bullet> In July 2002 Morgan Freeman donated his time to create a 
        series of Public Service Announcements (PSA's) to raise 
        awareness for the MLK Memorial. In addition, Freeman 
        voluntarily spoke to the media about the Memorial, including 
        participation in an on-line discussion on Washingtonpost.com.
  <bullet> In November 2002 under the auspices of National Parks 
        Service (NPS), the Foundation initiated the Environmental 
        Assessment of the proposed site. A public scoping session was 
        held in January 2003 and the public response was overwhelmingly 
        positive.
  <bullet> The Geotechnical Investigations are currently underway. 
        Early reports (as of April 2003) have indicated that the 
        structural foundations of the Memorial will extend 50 to 80 
        feet below the surface to support the Memorial.

    The MLK Foundation has also successfully partnered with individuals 
and organizations to raise awareness for the Memorial. For example, in 
May 2003, Senate Majority Leader Frist hosted the launch of the 
national media campaign developed by the Ad Council in collaboration 
with the advertising firm Saatchi & Saatchi. The PSAs feature Halle 
Berry and Al Roker.
    The MLK Foundation has raised $25 million in pledges out of the 
estimated $100 million needed to build the Memorial. General Motors, 
Tommy Hilfiger and Bell South continue to support the MLK Memorial 
Project. Over the next two years, the Foundation will continue to raise 
the necessary funds needed to build the Memorial.
    We have provided in our information package, a description of the 
concept of the winning submission and its salient features, the site 
plan, a report of contributions to date, and the project schedule. If 
this extension is approved, we feel certain that this will give us the 
time necessary to fund and build the memorial to Martin Luther King, 
Jr.
    Mr. Chairman and Members of the Subcommittee, we sincerely 
appreciate having the opportunity to appear before you in support of 
this legislation. Together, we can make this dream of building a 
memorial to Dr. King a reality.

    Senator Thomas. Thank you very much.
    Mr. Oberlander.

         STATEMENT OF GEORGE OBERLANDER, BOARD MEMBER 
       AND TREASURER, NATIONAL COALITION TO SAVE OUR MALL

    Mr. Oberlander. Mr. Chairman and members of the committee: 
My name is George Oberlander. I am a board member and trustee 
of the National Coalition to Save Our Mall, NCSOM for short. In 
the audience is the chairman of the NCSOM, Dr. Judy Feldman, a 
professor of Art History and the chairman of the Coalition. It 
is a national not-for-profit education and research 
organization working to preserve the National Mall as the 
monument to democracy it is intended to be.
    I am a city and regional planner, having retired in 1996 
from the staff of the National Capital Planning Commission 
after 31 years serving mostly as the associate executive 
director of that organization. Dr. Feldman's and my resumes are 
attached to the statement that you have.*
---------------------------------------------------------------------------
    * Attachments have been retained in subcommittee files.
---------------------------------------------------------------------------
    Last October, the coalition published its ``First Annual 
State of the Mall'' report, and that is also attached to the 
statement, in which we said, quote: ``The National Mall--the 
unique national park in the heart of our Nation's Capital--is 
under physical assault. The threats come from Congress, through 
well-intended interest groups and otherwise well-meaning 
citizens who wish to see more memorials or museums located on 
the Mall's dwindling historic planned public open space. These 
assaults on the Mall's open space character threaten to change 
and undermine the historic symbolism that makes the Mall the 
premier democratic public space in the Nation and indeed in the 
world.''
    On Memorial Day a few weeks ago, NBC Nightly News had a TV 
story about this assault called ``How Many Memorials Are 
Enough?'' I have a videotape here for the committee to view if 
it likes. A month before that, the Sunday April 20 edition of 
the Los Angeles Times devoted a full two pages to what is 
called ``America's Maul,'' and I have a copy of that article 
and the printout version is in the statement. So I would like 
to offer both of these for the record if I may.
    Senator Thomas. Without objection.
    Mr. Oberlander. Getting to the bills specifically, S. 268, 
to authorize the construction of the Pyramid of Remembrance if 
proposed to be located on the National Mall--and we heard that 
it is not to be located there--and S. 1076, authorizing the 
construction of an education center next to the Vietnam 
Memorial, continue this physical assault--only the Vietnam 
Memorial, not the Pyramid of Remembrance.
    We are not opposed to the concept of the Remembrance or the 
education center. We oppose additional manmade structures on 
the open space of the National Mall, which is a one of a kind 
natural resource over which this committee has oversight. We 
have three main points regarding these bills and, due to the 
limited time, I will just focus on S. 268 and S. 1076.
    The Commemorative Works Act, which has been discussed 
previously at this hearing, should be upheld with no exceptions 
in any authorizing legislation. As you know, Congress passed 
and then President Reagan signed the Commemorative Works Act in 
1986 in response to this problem of overbuilding on the 
National Mall. The purpose was and is to protect the historic 
L'Enfant and McMillan plans for the Mall, preserve the open 
space, and prevent new construction from encroaching on the 
existing memorials.
    S. 268, section 1(b)(2)(B) provides for exception, and you 
have it in the testimony. If the concept of the pyramid does 
not fit the standards of the CWA, then the structure might be 
better located elsewhere or possibly in Arlington National 
Cemetery.
    Regarding S. 1076, the Vietnam Education Center, section 
6(b) would except the center from requiring approval by law for 
the location in Area I, which is on the maps that you have 
looked at before. This provision is completely unacceptable to 
the coalition. We have attached an exhibit 2, our May 20, 2003, 
news advisory on this particular proposal.
    Any exception will set bad precedent. If you authorize this 
education-visitor center for one memorial, there will be 
requests for each of the other memorials recently built and in 
the pipeline. We wonder why the National Park Service proposal 
for the visitor-education-security screening center under the 
grounds of the Washington Monument is not also being considered 
by this committee, but maybe this committee has given 
authorization for this previously. I would like to question 
that, though.
    We support the current planning policies of the National 
Capital Planning Commission and the Joint Task Force on 
Memorials, and I have their whole document here and if you 
like--I think it is in your library, but if you like another 
copy, be glad to provide that. Those are the policies stated at 
the lower part of page 2 and I think for the sake of time I 
will not read them.
    Both S. 268 and S. 1076 are in direct conflict with the 
planning policies. Instead of seeking Mall sites, sponsors 
should choose from the numerous off-sites identified in the 
NCPC plan.
    The coalition is opposed to visitor facilities at each of 
our monuments and memorials. We are not opposed to a singular 
or maybe, if need requires, two centers, one possibly located 
in the Castle Building of the Smithsonian or on the other side 
of the Mall at the Museum of American History, which is to be 
renovated in the future. And the third possible location is 
actually at Union Station. Union Station when it was renovated 
several years ago was intended to be a visitors center, but it 
has not turned out to be that.
    Such locations would help visitors find their way around 
the National Mall and obtain information and knowledge about 
the unifying sense of freedom that underscores the entire 2-
mile open space stretch of the Mall from the Capitol Building 
to the Lincoln Memorial.
    Furthermore, if the Congress believes that there is need to 
educate our children and adults about America's involvement in 
war and conflict beyond the level of our public educational 
system, then the coalition would urge the Congress to authorize 
one comprehensive Museum of U.S. Military History or Education, 
located in accordance with the NCPC Memorial and Museum Master 
Plan. The document designates 20 prime candidate sites and 32 
other candidate sites. This kind of a memorial or museum would 
be similar to the one that is the Imperial Museum in London, 
England, where they commemorate all the wars that the British 
have been involved in.
    If the Congress continues to except memorials from existing 
laws, why have the Commemorative Works Act or the Memorial 
Commission or the Joint Task Force on Memorials or the memorial 
and museum planning work that is done by the National Capital 
Planning Commission?
    The coalition's primary concern is the preservation of the 
character of the Mall and we would like to make two final 
comments. One is the maintenance of existing memorials, the 
grass, the pathways, the restroom facilities. A greater 
maintenance effort is really needed. We provide in our 
testimony a photo of the condition of the D.C. World War I 
Memorial as an example. That is exhibit 3.
    The second point: Regarding the Commemorative Works Act 
process, we have heard recently that the NCMC recently voted to 
exempt its meetings from the Federal Advisory Committee Act and 
public open meetings. Since the NCMC is where site 
considerations occur, we think that is a mistake. We ask this 
committee to confirm this and, if true, an explanation for the 
exclusion of the public from what is clearly the public's 
business.
    We do not understand why this committee is not also 
considering S. 1157, a bill to establish within the Smithsonian 
Institution the National Museum of African American History and 
Culture. Section 8 of that bill mentions two possible locations 
on the Mall for this proposed museum.
    In summary, we support the Commemorative Works Act and we 
support the Interior Department's testimony today, with no 
exceptions in any authorizing legislation. The Memorials and 
Museum Master Plan and the current planning policies, we 
support those for locations of commemorative works; and a 
comprehensive Museum of U.S. Military History similar to the 
London Imperial War Museum, instead of individual visitor-
education facilities at each of the war memorials; and one or 
two visitor centers providing information, tickets, and 
knowledge about all attractions in the National Capital Region.
    We thank you for the opportunity to be before the committee 
and I will be very happy to answer any questions.
    [The prepared statement of Mr. Oberlander follows:]
 Prepared Statement of George Oberlander, Board Member and Treasurer, 
                  National Coalition To Save Our Mall
    Chairman Thomas and members of the Senate Subcommittee on National 
Parks, the National Coalition to Save Our Mall (NCSOM), founded in 
2000, is very pleased to be invited to testify on the several memorial 
bills before the Committee today. My name is George H. F. Oberlander, a 
board member and Treasurer of NCSOM.
    I am accompanied by Judy Scott Feldman, Ph.D., a professor of 
history and the Chairman of NCSOM, a national, not-for-profit education 
and research organization working to preserve the National Mall as the 
Monument to Democracy it is intended to be.
    My professional background is in City and Regional Planning. I 
retired in 1996 from the staff of the National Capital Planning 
Commission, after 31 years serving mostly as the Associate Executive 
Director for D.C. Affairs. (Dr. Feldman`s and my resumes attached).
    Last October the Coalition published its ``First Annual State of 
the Mall Report'' (attached Exhibit 1) in which we stated:

          The National Mall--the unique National Park in the heart of 
        our nation`s capital- is under physical assault. The threats 
        come from Congress, through well-intended interest groups and 
        otherwise well-meaning citizens who wish to see more memorials 
        or museums located on the Mall`s dwindling historic planned 
        public open space. In addition, in face of post 9/11 security 
        concerns, government agencies rush to erect walls and other 
        barriers around our monuments, install security cameras, and 
        erect check points to screen citizens at large public 
        gatherings. These assaults on the Mall`s open space character 
        threaten to change and undermine the historic symbolism that 
        makes the Mall the premier democratic public space in the 
        nation, and indeed the world. (Emphasis added)

    On Memorial Day, two weeks ago, NBC Nightly News had a TV story 
about this assault called ``How Many Memorials Are Enough?'' A month 
before that, the Sunday April 20, edition of the Los Angeles Times 
devoted a full two pages to what it called ``America`s Maul'' (M-a-u-
l). I would like to offer both the videotape and news commentary for 
the record.
    Bill S. 268, to authorize the construction of a Pyramid of 
Remembrance, if proposed to be located on the National Mall, and Bill 
S. 1076, authorizing the construction of an education center next to 
the Vietnam Veterans Memorial, continue this physical assault. We are 
not opposed to the concept of the Remembrance or the Education Center. 
We oppose additional man made structures on the open space of the 
National Mall, which is a one-of-a-kind natural resource over which 
this Committee has oversight.
    We have three main points regarding these bills, and due to the 
time limit, we will focus on S. 268 and S. 1076.
    1. The Commemorative Works Act (CWA) should be upheld with no 
exceptions in any authorizing legislation. As you know Congress passed 
and then-President Reagan signed the CWA in 1986 in response to this 
problem of overbuilding on the Mall. The purpose was and is to protect 
the historic L`Enfant and McMillan plans for the Mall, preserve the 
open space, and prevent new construction from encroaching on existing 
memorials.

  <bullet> Regarding S. 268, Section 1(b)(2)(B) provides for exception 
        from the CWA provisions dealing with military commemoratives 
        and commemorating events. We are opposed to these exceptions. 
        If the concept of the pyramid does not fit the standards in the 
        CWA, then the structure might be better located in Arlington 
        National Cemetery.
  <bullet> Concerning S. 1076, the Vietnam Education Center, Section 
        6(b) would except the Center from requiring approval by law for 
        the location in Area 1. This provision is completely 
        unacceptable to the Coalition. (Attached Exhibit 2 is our May 
        20, 2003 News Advisory on the Education Center). A Center at 
        this site would interfere with the serenity of the Memorial as 
        well as encroach on the Lincoln Memorial and its site.
  <bullet> Any exceptions will set bad precedent. If you authorize this 
        education/visitor center for one memorial, there will be 
        requests for each of the other memorials recently built and in 
        the pipeline. We wonder why the National Park Service`s 
        proposal for a Visitor/Education/Security Screening Center 
        under the grounds of the Washington Monument is not also being 
        considered by this Committee since it calls for a 60-foot 
        addition to the historic Lodge on 15th Street and security 
        walls on the open space. Has the Committee recently authorized 
        this undertaking on National Park land?

    2. We support the current planning policies of the National capital 
Planning Commission (NCPC) and the Joint Task Force on Memorials and 
its ``Memorials and Museum Master Plan (December 2001), which 
establishes the Mall as a ``Reserve'' for which no new memorials or 
museums should be allowed. We have reproduced and attached graphics 
from the NCPC Master Plan showing both the 1986 CWA boundaries for the 
so called Area I and Area II, and a map showing the adopted 
Commemorative Zone. (Attached Map A and Map B), as well as sites off-
the-Mall to accommodate future proposals.

  <bullet> Both Bills S. 268 and S. 1076 are in direct conflict with 
        these planning policies. Instead of seeking Mall sites, 
        sponsors should choose from the numerous off-Mall sites 
        identified in the NCPC Plan.

    The current public planning policies on the location of 
commemorative works, agreed to by a Joint Task Force on Memorials, 
provide for:

  <bullet> Preserving the integrity of the Monumental Core and its open 
        space, recreation lands, and scenic qualities by limiting 
        memorials in the close-in portions of the Core;
  <bullet> Encouraging memorials to locate in all quadrants of the city 
        as a way of enhancing neighborhoods and supporting local 
        revitalization efforts; and
  <bullet> Supporting Comprehensive Plan proposals which call for 
        increasing the public`s use of the National Capital 
        waterfronts.

    The NCPC Master Plan also contains specific policies which suggest 
``No new memorials or museums within the designated reserve'' or 
central portion of the Mall and ``no museums or education centers may 
be located in East Potomac Park or on other park land in Area I''. 
(Emphasis added)

    3. The Coalition is opposed to visitor facilities at each of our 
monuments and memorials. We are not opposed to a singular or maybe (if 
need requires) two centers one possibly located in the Castle building 
of The Smithsonian and the other at Union Station. Such locations would 
help visitors find their way around the National Mall and obtain 
information and knowledge about the unifying sense of freedom that 
underscores the entire two mile open space stretch of the Mall from the 
Capitol to the Lincoln Memorial.
    Furthermore, if the Congress believes there is a need to educate 
our children about America`s involvement in war and conflict, beyond 
the level of our public educational systems, then the Coalition would 
urge the Congress to authorize one comprehensive Museum of U.S. 
Military History or Education Center, located in accordance with the 
NCPC Memorial And Museum Master Plan. The document designates 20 Prime 
Candidate Sites and 32 Candidate Sites. (Maps C)
    Above and beyond the memorials you are considering today, the 
Congress has authorized the Black Patriots Memorial, the John Adams 
Memorial, and the African American History and Culture Museum. In 
addition, there are 17 proposals pending which either specify a Mall 
site or could request a Mall site. Examples (The Ronald Reagan Memorial 
Act of 2001 (H.R. 452), The Native American Memorial (H.R. 2918), 
Memorials to Terrorist Victims in the United States (H.R. 2982), and 
the Slavery Memorial (H.R. 4964).)
    According to the NCPC December 2001 ``Memorials And Museum Master 
Plan'' there are, as of June 2001, 155 memorials and 74 museums on 
public land in the District of Columbia and its environs. The location 
of each of the existing 229 sites can be found in the inside cover of 
the Plan.
    If the Congress continues to exempt memorials from existing laws 
why have the Commemorative Works Act, or the Memorial Commission, or 
the Joint Task Force on Memorials or the memorial and museum planning 
work of NCPC?
    We have no comments about S. 296, which requires the Secretary of 
Defense to report to Congress regarding possible inscriptions of 
veterans` names on the Memorial Wall. We would have serious concerns if 
the number of names that might be added would require additional 
construction or alteration to the Wall or other commemorative additions 
to the site. The Wall and its setting are a complete work of Art. The 
sculpture additions to the site have already cluttered this portion of 
this National Park.
    With respect to S. 268, which would authorize the Pyramid of 
Remembrance in Area II, we would feel more comfortable if Section 
1(b)(2)(A) would also make reference to the NCPC Memorials and Museums 
Master Plan Prime Candidate Sites. There are several Prime Candidate 
sites identified (depending on size and height) that would be good 
locations for this commemorative work.
    Regarding S. 470, we have no comments. As we understand this change 
in the authorizing legislation for the construction of a memorial to 
Martin Luther King, Jr., it extends the termination of the construction 
authorization to November 12, 2006.
    The Coalition`s primary concern is the preservation of the entire 
Mall and we would like to make two final comments:

          1. Maintenance of existing memorials, grass, pathways and 
        restrooms facilities. A greater maintenance effort is needed. 
        We provide a photo of the condition of the D.C. WW I Memorial. 
        (Exhibit 3)
          2. Regarding the CWA process, we have heard that the NCMC 
        recently voted to exempt its meetings from FACA and public open 
        meetings. Since NCMC is where site considerations occur, we 
        think that is a mistake. We ask this Committee to confirm this 
        and, if true, an explanation for the exclusion of the public 
        from what is clearly the public`s business.

    We do not understand why this Committee is not also considering S. 
1157, a Bill to establish within The Smithsonian Institution, the 
National Museum of African American History and Culture. Section 8 of 
that Bill mentions two possible locations on the Mall for this proposed 
museum.
    In summary we support:

  <bullet> the Commemorative Works Act with no exceptions in any 
        authorizing legislation;
  <bullet> the Memorials and Museum Master Plan and the current 
        planning policies on the location of commemorative works;
  <bullet> a comprehensive Museum of U.S. Military History, (similar to 
        the London Imperial War Museum) instead of individual visitor/
        education facilities at each of the war memorials); and
  <bullet> One or two visitor centers providing information, tickets 
        and knowledge about all attractions of the National Capital 
        Region.

    Thank you for the opportunity to appear before the Committee. We 
would be pleased to answer any questions

    Senator Thomas. Thank you, gentlemen, all of you. I just 
have a few. I will have short questions. If you can have short 
answers that would be good.
    Mr. Enzerra, if you did a Pyramid of Remembrance would 
these be names? Would you have names involved?
    Mr. Enzerra. Yes, we are considering having names involved 
in the pyramid, although we are open to design criteria and all 
options so that we can honor the American soldiers that 
perished in the ways that I have mentioned earlier. We realize 
that by adding names the criteria that is to be considered and 
so we have researched the criteria and we will be willing to 
work with the Department of Defense and other organizations, 
veterans, to assure that we do the right thing by our soldiers 
who perished.
    Senator Thomas. Thank you.
    Colonel, the bill says ``died as a direct or indirect 
result of military operations.'' ``Indirect result of military 
operations,'' that is pretty broad. Could it be somebody that 
died 20 years later because of something that happened?
    Colonel Zumwalt. Yes, sir, it could be. In fact, there are 
names on the wall of people who died many years after the war.
    Senator Thomas. Yes, but those were combat.
    Colonel Zumwalt. Yes, sir.
    Senator Thomas. I am talking about someone who had an 
illness because they were there or whatever. It seems like it 
is a very broad definition.
    Colonel Zumwalt. Well, it is, sir, and I think it is 
important that as one goes through this process that they try 
to categorize things. You know, if you take a look at all the 
names on the wall it is my belief that they fall into three 
categories. One is combat zone death from enemy fire; one is 
combat zone death not from enemy fire; and a third is not 
combat zone death and not from enemy fire. You have them 
falling in all three groups.
    Something has to be done here to come up with a system that 
is more uniform in the application.
    Senator Thomas. Mr. Lecky, you indicated that the little 
information center that is there from the Park Service, 168 
square feet, is going to be close to where you are talking 
about.
    Mr. Lecky. It would be in exactly the same location.
    Senator Thomas. What size would be the surface, above-
surface operation that you are talking about?
    Mr. Lecky. We are working on trying to reduce this, but if 
I can take the opportunity to answer that question----
    Senator Thomas. Just give me an answer; can you?
    Mr. Lecky. Somewhere between 1,500 and 2,000 square feet.
    Senator Thomas. So it would be quite larger than what is 
there now? You talked about this being there.
    Mr. Lecky. Yes, it would be bigger than the little Park 
Service kiosk, yes.
    Senator Thomas. Sure. 1,500 feet, did you say, or 2,000?
    Mr. Lecky. 15 to 2,000.
    Senator Thomas. Would you have an elevator to go down to 
the basement?
    Mr. Lecky. We would need to take care of handicapped 
accessibility, so yes.
    Senator Thomas. How tall would the structure be to 
accommodate an elevator?
    Mr. Lecky. Well, I would guess the above structure would be 
12 feet, something like that, in terms of the height.
    Senator Thomas. I see. Have you looked at places that are 
fairly close, but not right there next to the wall?
    Mr. Lecky. We certainly have. We have combed the Mall and 
that--there are several reasons that seemed like a good spot. 
A, it is sort of off to the side, so it is not blocking any 
view. B, that little plot of ground is surrounded by grass and 
it is sort of open in the middle, so that we could excavate and 
do the underground without removing, hopefully, any trees.
    But yes, we have looked all over.
    Senator Thomas. Have you thought about education for all 
the various war memorials?
    Mr. Lecky. Well, if I am going to get myself in trouble I 
might as well jump in right now. If I were king, which I am 
clearly not, I would have a similar underground access over on 
the other side of the Lincoln and I would excavate the entire 
roadway between the two entry points and cover, and put in 
restaurants and visitors centers and whatever, and then cover 
it back over with a road so you would never know it was there.
    Senator Thomas. I see. You mentioned that the east end is 
different. It is different. It is not nearly as wide and you 
have museums on either side. Some would argue that we want to 
keep the other one away from restaurants and so on, but that is 
a different point.
    Let us see. I guess maybe that is--I thought I had one more 
question here. Are you aware of any plans for the Mall other 
than perhaps this Vietnam one, or ideas at least?
    Mr. Oberlander. Yes, sir, there is a proposal to have a 
visitors center under the Washington Monument grounds. It is 
already in the planning and execution stage. There would be a 
tunnel connecting this visitors center to the underground 
portion of the monument itself. The coalition is very much 
opposed to that proposition. And it is also being done in 
connection with making the Washington Monument more secure.
    Senator Thomas. I see. Okay, thank you.
    Senator.
    Senator Akaka. Thank you very much, Mr. Chairman.
    Mr. Zumwalt, I just want to commend you on your testimony 
and also the article that was in this morning's newspaper 
entitled ``Fitting Additions to the Wall.''
    Colonel Zumwalt. Thank you, sir.
    Senator Akaka. You have reiterated much of what is 
contained in that article and did a good job.
    Colonel Zumwalt. Thank you very much, sir.
    Senator Akaka. Mr. Johnson, it seems as though you have 
support here among the witnesses today. If enacted, this 
legislation would give your organization an additional 3 years 
to raise the funds necessary to begin construction of the 
memorial. According to your testimony, the foundation has 
raised approximately $25 memorial of the $100 million needed to 
build the memorial. How confident are you that you will be able 
to raise the remaining funds within the next 3 years, or do you 
anticipate you will need an extension when the 3 years is up?
    Mr. Johnson. Senator, I do not expect to ask you for 
another extension. I am very confident that we will raise the 
additional funds. Part of our public service awareness campaign 
which we launched last month was to build awareness of the 
memorial. Up to this date we have raised $25 million with 
barely anyone in this country knowing that we were building the 
memorial to Dr. King. Soon you will see in Parade magazines, on 
TV and other PSA's Halle Berry walking across the stage and 
others, asking and building up the awareness for the memorial. 
So we believe that funding will come in from that source at 
that time.
    Senator Akaka. Thank you.
    Mr. Enzerra, the Park Service has testified that your 
proposed memorial is not consistent with the requirements of 
the Commemorative Works Act and should instead be established 
as a memorial on military property. What is your reaction to 
that proposal?
    Mr. Enzerra. We are very appreciative and desire 
wholeheartedly to work with the Department of Defense and the 
Department of the Interior to find a location, a suitable 
location that would be outside of Area I, not located adjacent 
the Mall. The National Capital Memorial Commission in 2001 
testified that this memorial would indeed fill a void in our 
Nation's military monuments and they too recommended that it be 
placed on Department of Defense property. So we fully support 
that and would be willing to collaborate with the Defense 
Department to find a suitable location.
    Senator Akaka. Thank you.
    Thank you very much, Mr. Chairman.
    Senator Thomas. Senator Campbell.
    Senator Campbell. Thank you, Mr. Chairman. I will be quick. 
I understand we have a vote in a few minutes; is that correct?
    Senator Thomas. I do not know. I have not heard.
    Senator Campbell. Well, I heard we did.
    Let me just ask a couple questions and maybe make a 
statement, first of all maybe to Mr. Johnson. I certainly 
appreciate your input in this bill. I am one of the co-
sponsors, as you probably know, and I would just ask you to 
help me on another bill.
    A couple years ago, I introduced a bill, it was S. 1791 if 
you can remember that number, and it authorized the Library of 
Congress to enter negotiations to buy the King papers or to 
have the King papers purchased by a private benefactor who 
would donate them to the Library of Congress. That bill 
passed--I think it must have set a record. From the time we 
introduced it, it passed the floor of the Senate in 3 days. 
That is how popular it was.
    Unfortunately, it was near the end of the year a couple of 
years ago and it got tied up in the House and we could not get 
it out of the House. I have not reintroduced it, but I wanted 
just to--when you have time, I would like you to work with our 
staff because I want to reintroduce that bill. If you could 
help us with that I would appreciate it.
    Mr. Johnson. It would be my pleasure.
    Senator Campbell. Colonel Zumwalt, let me take a 
hypothetical case about names on the wall. There are two 
soldiers in Vietnam. One is in a foxhole with a machine gun and 
one is sitting on a bar stool in a local village. The one with 
a machine gun, he fights off a bunch of enemies and kills 
several; in the process he is killed himself. The one in the 
bar, he gets so stone drunk he falls off the bar stool and 
breaks his neck.
    Are they both eligible, since it is in a war zone, to have 
their names put on the wall?
    Colonel Zumwalt. No, sir.
    Senator Campbell. What is the criteria, since they are both 
in a war zone?
    Colonel Zumwalt. Well, sir, in that particular case it 
would be the fact that the second death did not involve enemy 
fire.
    Senator Campbell. But there are names on there that do not 
involve enemy fire, are there not?
    Colonel Zumwalt. Yes, sir.
    Senator Campbell. Did I understand your testimony----
    Colonel Zumwalt. Yes, sir, and I can give you an example of 
somebody who did not die in the combat zone, who did not die as 
a result of enemy fire, but I still believe needs to be on the 
wall, sir. That is a gentleman who tomorrow, June 4th 30 years 
ago he died at his own hand. He was Captain Allen Brudnow. He 
was a POW for 7\1/2\ years, returned to the United States and 
4\1/2\ months later took his own life. No doubt in my mind, 
sir, that that man was affected by his service, the service of 
his country, and he should be on the memorial, sir, and he is 
not.
    Senator Campbell. In other words, there is no exact strict 
defining regulation about who goes on or who does not, if there 
are exceptions to put some on who maybe were not qualified 
under the existing rules and others were left off who should 
have been?
    Colonel Zumwalt. Yes, sir. I think the problem goes back to 
the fact as I understand it that it was left up to the various 
services to determine who qualified and who did not qualify----
    Senator Campbell. I understand.
    Colonel Zumwalt [continuing]. Rather than having one source 
that screened every possible name, sir.
    Senator Campbell. Thank you.
    Now, I did not hear, I am not sure if it was Mr. Lecky or 
Mr. Enzerra who made the comment about that there could be 
things put on the Mall that do not hurt the integrity of the 
visual view of the Mall. Was that you, Mr. Lecky?
    Mr. Lecky. Yes, it was.
    Senator Campbell. You know, maybe you know this, but I am 
sure most people do not know that there is a horse stable down 
there. The only reason I knew about it, is 10 years ago I 
wanted to bring my horse from Colorado to be in the Inaugural 
Parade, and the Park Service told me: Why do you not just leave 
him down there with us; we will take care of him. And I had a 
heck of a time finding it. But you know where it is. It is down 
there in the trees.
    Mr. Lecky. I do.
    Senator Campbell. I mean, it is only 5 minutes from the 
Lincoln Memorial. You almost cannot see it from walking around 
it. So there is no doubt in my mind that there are places on 
the Mall where you could put things that would not hurt the 
integrity of the view because the vast majority of people do 
not even know about that stable. I know Senator Thomas does, 
but most people--because he is a westerner and a horseman like 
I am. But most people do not know about it.
    Mr. Lecky. I agree.
    Senator Campbell. I thought I would just pass that on.
    Mr. Oberlander, I have to tell you that, you know, I 
believe in anybody's right to come in and testify for and 
against anything, but when you talk about setting a precedent, 
in my view if we had not had the courage to set precedents, 
this Nation would not even be a Nation. It has become a Nation 
because people had the courage to do something a little 
different in our past history.
    I am thinking in terms of--I think of this place, what it 
was 250 years ago. If there had been a coalition to not change 
the Mall, this place would still be a swamp. I mean, there have 
been changes all along and it seems to me the majority of the 
changes have been beneficial, not only from a health standpoint 
and an organizational standpoint, but the people that come to 
our office, they always want a list of all the things they can 
visit and see, and that includes museums, memorials, and 
literally everything else. When they are here a week they 
cannot begin to see the things that are here, but they want to 
know of every one of them so that they and pick and choose and 
visit the ones they think are the most important.
    I just want to tell you, I have a personal problem with 
whenever I see the words ``save our'' something and something. 
I am just glad that everybody does not think about that all the 
time or we would not have had progress in this country.
    I have no further comments or questions, Mr. Chairman.
    Senator Thomas. If there are any additional questions, we 
may ask them in the next few days.
    Yes, sir, very quickly, please.
    Mr. Lecky. If I could just respond quickly to a couple of 
comments that I have heard. One is concerned about the visitors 
center decreasing the emotional experience of the wall. Having 
done this 20-some years ago, I have probably conducted 200 
tours of friends and relatives of the Mall. Every time I have 
gone through both Korea and Vietnam and explained about the 
construction and the competitions and the stories behind it, 
everyone has come away saying: My God, I had no idea; this has 
so increased my understanding and impact of the wall.
    I think it is just the reverse, to say that an education 
center is going to decrease the emotional response to the wall.
    Relative to size, our center is roughly a quarter of the 
size of the food service building that is there, a fifteenth of 
the size of the stables and the maintenance facility.
    The comment that you cannot build it underground. When we 
were doing Vietnam, everybody said: My God, it is going to fill 
up with water, we are going to have a lake on the Mall. I have 
done several Metro stations underground, talked to engineers. 
This can definitely be built without filling up with water or 
floating in water or whatever.
    That is the end of mine.
    Senator Thomas. Well, there are different points of view, 
of course. I think we ought to remember that anyone who is 
interested in making sure that the space remains pretty open 
and so on is not discounting the value of the recognition of 
other people. It is a matter of where it is placed. That is 
always a difficult thing. You know, I think oh my God, you do 
not support Vietnam. Well, that is not true. It is an idea that 
you could do it in some other way if you do not agree, or that 
you can do it in your way.
    So it is one of the issues before us, and we appreciate all 
of you being here, appreciate it very much. Thank you very 
much.
    [The prepared statement of Mr. Scruggs follows:]

   Prepared Statement of Jan Scruggs, Vietnam Veterans Memorial Fund

    We appreciate Senator Campbell's interests in the Vietnam Veterans 
Memorial. We are now raising the funds required to place an In Memory 
Plaque at The Wall--legislation that he sponsored in the Senate.
    His latest bill is S. 296. The bill lays the groundwork for one of 
two results.
    The first is the addition of more names than the Memorial can 
accommodate. We only have four places on The Wall where names exceeding 
seventeen letters can now be placed. An example is the name of Robert 
Salas Rocha, who we recently engraved. Yet another issue is the 
financial cost--approximately $3,500 per name. Perhaps a thousand names 
could be at issue here ranging from accidents near the Vietnam Theater 
of Operations--including Thailand--to other requests including a group 
of Green Berets who died in an aircraft accident in Alaska on their way 
to Vietnam. One mother believes her son should be engraved since he 
would not have died in an ordnance accident in Maryland had he not been 
drafted due to Vietnam.
    The second result is the addition of a separate Memorial on the 
site for the aforementioned casualties. This is also a troublesome 
outcome. People desire further separate Memorials on the site. There 
are desires for a statue of a Native American at the Vietnam Veterans 
Memorial (which has not yet been brought to Congress). Other groups 
determined to have a statue or plaque at The Wall include Dog Handlers, 
the CIA Agents, the American Red Cross and others. Once we dedicate the 
Plaque, these floodgates may open, all of which have sincere 
constituencies. This is, of course, the difficult job that your 
Chairman has. Sincere people want to place things on the Mall.
    The Visitor Center will Rave rotating exhibits or a Wall of Honor 
to bring recognition to these various groups. This is one reason why 
plans for the Center continue. The primary reason is to provide a 
profound educational experience for America's youth using creative 
exhibits coupled with the power of The Wall--at The Wall. The Wall's 
popularity attracts more legislative interests for future modifications 
than is desirable. The Center will allow us to end further 
memorialization there.
    I was traveling in Asia for your last hearing. Yet an idea was 
advanced which changed the nature of the project. Someone mentioned 
that the Center would be too small. We therefore expanded the 
underground Center to 10,000 square feet.
    I have brought exhibits of architecture near the Vietnam Veterans 
Memorial which are not acceptable to our high standards of 
architectural excellence.
    Let me also show you the actual In Memory Plaque. An earlier 
proposal by American Battle Monuments Commission was withdrawn at a 
Commission of Fine Arts hearing when we and others objected to the poor 
quality of the design proposal.
    For your information, we have a rendering of the actual Visitor 
Center.
    Our architect of record finds the conclusion of this Commission 
that the above ground aspect of the Visitor Center will hurt the Mall 
area to be without merit. Again I bring to your attention the standards 
of acceptability of what goes on the Mall.
    Thank each of you again for hearing my remarks.

    Senator Thomas. The meeting is adjourned.
    [Whereupon, at 4:30 p.m., the hearing was adjourned.]


</pre></body></html>
